<html>
<title> - PROTECTING OUR HOMELAND AGAINST TERROR: BUILDING A NEW NATIONAL GUARD FOR THE 21ST CENTURY</title>
<body><pre>[Senate Hearing 107-738]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-738
 
 PROTECTING OUR HOMELAND AGAINST TERROR: BUILDING A NEW NATIONAL GUARD 
                          FOR THE 21ST CENTURY
=======================================================================




                                HEARING

                               before the

                 SUBCOMMITTEE ON TECHNOLOGY, TERRORISM,
                       AND GOVERNMENT INFORMATION

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 13, 2001

                               __________

                          Serial No. J-107-54

                               __________

         Printed for the use of the Committee on the Judiciary











                           U.S. GOVERNMENT PRINTING OFFICE
82-426                          WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001












                       COMMITTEE ON THE JUDICIARY



                  PATRICK J. LEAHY, Vermont, Chairman
EDWARD M. KENNEDY, Massachusetts     ORRIN G. HATCH, Utah
JOSEPH R. BIDEN, Jr., Delaware       STROM THURMOND, South Carolina
HERBERT KOHL, Wisconsin              CHARLES E. GRASSLEY, Iowa
DIANNE FEINSTEIN, California         ARLEN SPECTER, Pennsylvania
RUSSELL D. FEINGOLD, Wisconsin       JON KYL, Arizona
CHARLES E. SCHUMER, New York         MIKE DeWINE, Ohio
RICHARD J. DURBIN, Illinois          JEFF SESSIONS, Alabama
MARIA CANTWELL, Washington           SAM BROWNBACK, Kansas
JOHN EDWARDS, North Carolina         MITCH McCONNELL, Kentucky
       Bruce A. Cohen, Majority Chief Counsel and Staff Director
                  Sharon Prost, Minority Chief Counsel
                Makan Delrahim, Minority Staff Director
                                 ------                                

   Subcommittee on Technology, Terrorism, and Government Information

               DIANNE FEINSTEIN, California, Chairperson
JOSEPH R. BIDEN, Jr., Delaware       JON KYL, Arizona
HERBERT KOHL, Wisconsin              MIKE DeWINE, Ohio
MARIA CANTWELL, Washington           JEFF SESSIONS, Alabama
JOHN EDWARDS, North Carolina         MITCH McCONNELL, Kentucky
                 David Hantman, Majority Chief Counsel
                Stephen Higgins, Minority Chief Counsel
















                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

Feinstein, Hon. Dianne, a U.S. Senator from the State of 
  California.....................................................     5
Hatch, Hon. Orrin G., a U.S. Senator from the State of Utah......     1
Kyl, Hon. Jon, a U.S. Senator from the State of Arizona..........     7
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont.    32

                               WITNESSES

Alexander, Richard C., Major General (retired), Executive 
  Director, National Guard Association of the United States, 
  Washington, D.C................................................    15
Bond, Hon. Christopher S., a U.S. Senator from the State of 
  Missouri.......................................................     2
Davis, Russell C., Lieutenant General, Chief, National Guard 
  Bureau, Arlington, Virginia....................................    11
Libutti, Frank G., Lieutenant General (retired), Special 
  Assistant for Homeland Security, Office of the Secretary of 
  Defense, Department of Defense, Washington, D.C................     8
Monroe, Paul D., Jr., Major General, Adjutant General, State of 
  California, Sacramento, California.............................    19

                       SUBMISSIONS FOR THE RECORD

Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont, 
  Hon. James M. Jeffords, a U.S. Senator from the State of 
  Vermont, Hon. Patty Murray, a U.S. Senator from the State of 
  Washington, and Hon. Maria Cantwell, a U.S. Senator from the 
  State of Washington, joint letter to Hon. Tom Ridge, Director 
  of Office of Homeland Security, December 12, 2001..............    39
Rostker, Bernard, Senior Researcher, RAND Washington Office, 
  Washington, D.C., statement....................................    35













 PROTECTING OUR HOMELAND AGAINST TERROR: BUILDING A NEW NATIONAL GUARD 
                          FOR THE 21ST CENTURY

                              ----------                              


                      THURSDAY, DECEMBER 13, 2001

                              United States Senate,
     Subcommittee on Technology, Terrorism, and Government 
                                               Information,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:15 p.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Dianne 
Feinstein, chairman of the subcommittee, presiding.
    Present: Senators Feinstein, Leahy, Hatch, and Kyl.
    Chairperson Feinstein. The meeting of the subcommittee will 
come to order.
    Senator Kyl, the ranking member of the subcommittee, will 
be here about 2:30. Unfortunately, he can't be here before, and 
we are delighted to have the ranking member of the full 
committee here and because he has got a time constraint, I 
would like to give him the opportunity to make his statement 
now. Then I will make a brief statement and then we would like 
to welcome Senator Bond and we will hear from him.

STATEMENT OF HON. ORRIN G. HATCH, A U.S. SENATOR FROM THE STATE 
                            OF UTAH

    Senator Hatch. Well, thank you, Madam Chairperson. I 
appreciate you doing this for me because I have to be at the 
White House, but I am grateful for this timely and important 
hearing that you are conducting. I appreciate the opportunity 
to make this opening statement today. Unfortunately, as I said, 
I have got to depart shortly.
    As a member of the Senate National Guard Caucus, I want to 
express my keen interest in the role of the National Guard in 
protecting our homeland against terror. This is an important 
topic, and I commend you in particular for holding this 
hearing.
    As a Nation, it is imperative that we get this right. Our 
national security both at home and abroad depends on deciding 
the right mission for our National Guard and clearly 
articulating priorities. All recruiting, training and 
resourcing for the National Guard depends on the role they are 
given in the 21st century. We cannot afford to waste time, 
effort, or money.
    Currently, the National Guard has the dual mission as a 
State militia and as a national warfighter. I believe this has 
worked well. I would encourage a very judicious study of any 
new architecture proposed for the National Guard that would not 
preserve this dualism.
    Another important concept concerning the National Guard is 
jointness. The National Guard executes joint operations 
extremely well with other active-duty forces. We see that today 
as the U.S. active-duty and reserve troops prosecute the war on 
terrorism overseas.
    I also know that the National Guard implements jointness 
extremely well in its State militia role. I point to the 
experience of the Utah National Guard as they prepare to 
perform security operations for the 2002 Salt Lake Winter 
Olympics. I believe the preparation for these Olympic Games 
manifests just how well the National Guard has established a 
partnership between State and Federal military forces.
    Yet, the National Guard's execution of joint operations 
does not stop with the military. The Utah National Guard also 
established a strong partnership with civil authorities in the 
process of gearing up for the Olympic Games. I refer to the 
excellent working relationships between the Utah National Guard 
and the State, local and Federal law enforcement agencies. It 
is essential that these relationships between State and Federal 
military and between military and civilian law enforcement be 
transparent to ensure effective security for the Games. In a 
hearing I chaired last May concerning Olympic security and 
cooperation among the various Federal, State and local 
agencies, the message was loud and clear. The National Guard 
knows how to execute joint missions.
    I will close with just one last point. Whatever mission is 
handed to the National Guard, we all have a responsibility to 
ensure that the Guard is given the proper resources to do the 
job.
    I am grateful to have Senator Bond here today, who plays a 
significant role in this area. We appreciate having you before 
the subcommittee.
    So, again, Madam Chairwoman, I thank you for your 
leadership and the opportunity to examine this very important 
topic. I think this hearing is a very important hearing, so 
thank you.
    Chairperson Feinstein. Thanks very much, Senator Hatch. We 
are delighted that you came, and have a good trip to the White 
House. Thank you.
    Senator Bond, if you have a time problem, and perhaps you 
do and would like to go now, I will leave it up to you. I can 
make my statement or I would be happy to defer to you.
    Senator Bond. Madam Chair, if it is all right with you, 
this is a rather busy day for me and if I may be permitted?
    Chairperson Feinstein. Please go ahead.

STATEMENT OF HON. CHRISTOPHER S. BOND, A U.S. SENATOR FROM THE 
                       STATE OF MISSOURI

    Senator Bond. I do appreciate the opportunity to appear 
before this subcommittee to express my views regarding the role 
of the National Guard, and I would thank in absentia my good 
friend and dear colleague from Utah for his excellent 
statement.
    As a former Governor of the State of Missouri and currently 
as the co-chair of the Senate National Guard Caucus, I 
understand how vital it is that we continue properly to 
resource the Guard for the missions they are assigned both at 
home and abroad.
    I also understand the need to preserve the National Guard's 
constitutional role. The Guard aptly states that ``Today's 
National Guard continues its historic dual mission, providing 
to the States units trained and equipped to protect life and 
property, while providing to the Nation units trained, equipped 
and ready to defend the United States and its interests all 
over the globe.''
    I would add that during my time as Governor, I frequently 
called on the Guard to meet its civilian role. I called them 
out frequently. I was said to be the master of disaster because 
we had floods, tornadoes, fires, everything but earthquakes and 
pestilence, and the Guard was there.
    Now, we have seen the Guard respond to the national 
security mission, and I am very pleased and honored to testify 
on this, the 365th birthday of the National Guard. If I may, I 
would extend my hardiest, most sincere birthday wishes to 
Lieutenant General Russell Davis and the men and women who 
serve so faithfully as citizen soldiers and airmen.
    We wish you, General Davis, not only a happy birthday, but 
as we would say in our line of work, many happy returns. Thank 
you, General Davis.
    It is an honor to testify because we are here today to 
discuss the role of the Guard, while celebrating the Guard's 
record of unsurpassed service over 365 years. Over all these 
years, the Guard has been the bedrock on which our Nation's 
security has rested both at home and abroad.
    Our national security depends upon the health and continued 
stability of our Guard forces. The Guard's dual role as the 
States' and Governors' first line of defense in support of 
local and State civil authorities and as the vital reserve for 
our active military forces is well-established.
    I cite a recent Washington Post article entitled ``Military 
Favors a Homeland Command: Forces May Shift to Patrolling 
U.S.'' The author there, Bradley Graham, states that our 
Nation's top military authorities favor appointing a four-star 
commander to coordinate Federal troops used in homeland 
defense. He correctly points out that the chain of command is 
not clear, and I would agree that that must be rectified.
    The article also suggests that the historic Federal role of 
the Guard as the vital reserve for our active forces might be 
reevaluated in favor of restructuring the Guard, or portions 
thereof, for a more narrow homeland defense role. While 
discussing the National Guard's dual role, the author quotes 
Secretary Tom White, the interim Department of Defense 
Executive Agent for Homeland Security, who says, ``One school 
of thought says we can still do both'' for a domestic 
operation, ``but the other side says we can't.'' The author 
also writes that Governor Ridge said the administration would 
look at whether to shift some Guard units and assets.
    I am not suggesting that the Guard force structure should 
not be adaptable to a changing threat environment. It has, it 
can right now, and it always will. But I would caution anyone 
who would seek to alter the traditional dual role and mission 
of the Guard.
    If, God forbid, we must endure another attack on our home 
soil, there is no doubt that the National Guard will be on 
station assisting local and State civil authorities. Any 
expansion of responsibilities of the National Guard must be 
fully supported with the resources necessary to perform its 
expanded mission. But any effort to reduce the Guard's 
longstanding wartime role in support of our National military 
strategy overseas would, I believe, be met with fierce 
resistance, and for good reason.
    We all know that the First World War was labeled the war to 
end all wars. Little did we know that Nazi Germany had other 
ideas, and Japan. Ask our veterans and strategic reserves who 
served in Korea, Vietnam, Somalia, Desert Storm, the Balkans, 
Kosovo, and now Afghanistan, if these events were fully 
anticipated. We know not what the future holds, but we do know 
that our best defense is the ability to field a sound defense, 
and this, in my view, must continue to include the Guard.
    We also know that without a vibrant force in reserve, ready 
to step in when our active forces absolutely must have 
reinforcements, our ability to wage a sustained war is 
weakened. If war must be waged, let it not be waged on our 
soil.
    We are waging war in Afghanistan because we do not want to 
wage war here at home. Our active forces are designed and 
equipped to carry the fight to any enemy on his territory, but 
if our worst fears come true, if the bench is empty when our 
active forces overseas need replacements because we have 
foolishly weakened our vital reserves here at home, we are in 
deep trouble.
    To recap, we must, in my view, acknowledge the need 
properly to shape our forces to respond to any attack here at 
home or abroad. Furthermore, additional requirements placed on 
our Guard forces must be adequately and fully resourced. That 
is military-speak for funding it.
    Any attempt to fund the increased cost of homeland defense 
by radically restructuring the Guard and changing its 
traditional role would significantly weaken its ability to 
support our National military strategy. As we look to 
strengthen our homeland defenses, as we must, we must ensure 
our active and Guard forces are able effectively to coordinate, 
plan and implement a cohesive homeland defense strategy. And we 
must work to improve interagency communications and teamwork.
    The Guard has a well-established record of working with 
local and State civil authorities and Federal military forces 
to accomplish the Nation's business. I am fully confident that 
the National Guard, led by Lieutenant General Davis, will 
continue to meet the requirements and responsibilities demanded 
by current and emerging threats.
    We have no draft. Our only bench, our only emergency call-
up forces are the strategic Guard and reserve. The strength of 
the strategic reserve remains the flexibility of the National 
Guard to shape our forces and respond to any threat either at 
home or abroad. This is the Guard's stated mission, and I truly 
believe any attempt to change it would be shortsighted.
    I thank the subcommittee very much for the opportunity to 
share these views.
    Chairperson Feinstein. Thanks very much, Senator Bond. We 
appreciate your comments, and particularly as a former Governor 
they have double meaning. So thank you very much.
    I would like to acknowledge the presence of the ranking 
member of the subcommittee, Senator Kyl, with whom I have 
worked closely on other issues.
    Senator, I would like to make a brief opening statement, 
then turn to you. My understanding is the chairman of the 
committee--
    Senator Kyl. Might I just thank Senator Bond as well, Madam 
Chairman?
    Senator Feinstein. You certainly may.
    Senator Kyl. I very, very much appreciated his comments, 
and look forward to speaking with you personally about more of 
the ideas that you expressed. Thank you very much, Senator.
    Senator Bond. Thank you, Senator.

  STATEMENT OF HON. DIANNE FEINSTEIN, A U.S. SENATOR FROM THE 
                      STATE OF CALIFORNIA

    Chairperson Feinstein. Thank you, Senator Kyl.
    The chairman of the committee, Senator Leahy, it is my 
understanding, may wish to attend and make a statement, and 
when he does, we will defer to him as well.
    Senator Bond mentioned the birthday of the Guard, and 
actually there is a very interesting historic anecdote about 
the birthday. The Guard dates its founding back to December 13, 
1636, when the Massachusetts Bay Colony Legislature--that was 
called the General Court--divided the militia into three 
separate groups, with the purpose of increasing its efficiency.
    For years, the Guard celebrated its birthday on the wrong 
day, October 10, not December 13, and that is because 
historians had determined that the General Court had met to 
reorganize the militia on the 10th day of the 10th month. 
However, in 1983, a National Guard historian researched the 
issue and determined that the legislature actually ordered the 
regiments to be formed on the 13th, not the 10th. He also 
determined that the calendar year in 1636 began in March, not 
January, so that the 10th month was December, not October.
    So I too would like to say happy birthday to our National 
Guard.
    This is a hearing on whether the National Guard should have 
an enhanced role in homeland security, not to defer or deter 
from its primary mission, but to give it another role. In many 
ways, such a role would return the National Guard more to what 
was envisioned by the Founders of the country.
    Colonial militias protected their fellow citizens from 
Indian attack, from foreign invaders, and later helped with the 
Revolutionary War. And during the 19th century, the militia 
provided the bulk of the troops during the Mexican War, the 
early years of the Civil War, and the Spanish-American War.
    It was not until 1903 that Congress passed legislation to 
increase the role of the National Guard as a reserve force for 
the United States Army, and that has become a primary role 
today. Currently, the National Guard acts as a strategic 
reserve for the Army and Air Force and as State militias.
    Because Federal law requires that the Guard receive the 
same training and equipment as the regular armed forces and 
reserves, Guard members often spend a fair amount of time 
preparing for overseas deployment, and that is their primary 
mission, as well it should be.
    However, it is far more likely that the National Guard will 
be used to respond to a terrorist threat, or even to help clean 
up a natural disaster. That is because in their role as State 
militias, they are exempt from the Posse Comitatus Act and thus 
are used as the armed forces' primary provider of support to 
civil authorities.
    The National Guard's access to military command and 
control, discipline, training and equipment makes it well-
suited to coordinate with and back up police, firemen, and 
other responders.
    There are about 460,000 National Guard members that train 
throughout the year--353,000 Army National Guard and 106,000 
Air National Guard. The approximate numbers of National Guard 
in individual States run from about 1,000 to 21,000, and vary 
according to the population of the State and the recruitment 
efforts.
    In light of the September 11 attacks on the World Trade 
Center and the Pentagon, as well as the October 2001 anthrax 
attacks on Congress and the media, many experts have come to 
believe that the National Guard should play a more central role 
in responding to terrorist attacks, particularly those with 
weapons of mass destruction. In fact, the Guard has already 
played an important role in helping respond to these attacks, 
not only at the site of the attacks but also at airports, 
around the Capitol, and elsewhere where it is serving today.
    The National Guard is well-suited to performing an enhanced 
homeland security mission because it is already deployed in 
communities around the country, integrated into local, state 
and regional emergency response networks, has ties with key 
players in local, State and Federal Governments, is not bound 
by the Posse Comitatus Act while serving in Title 32 status and 
thus has maximum flexibility. The Posse Comitatus Act generally 
restricts law enforcement to civil authorities.
    The Guard is responsible for and experienced with homeland 
security missions, including air sovereignty, disaster relief, 
responding to suspected weapons of mass destruction events, and 
counter-drug operations. The Guard has existing physical, 
communications and training infrastructure throughout the 
United States.
    It has existing training facilities, distance learning 
training networks, and a number of highly skilled individuals 
who have left active forces. And the Guard helps preserve a 
constitutional balance between State and Federal sovereign 
interests, given its unique dual Federal/State role.
    Moreover, the Department of Defense reviews and reports, 
including the 2001 Quadrennial Defense Review and Reserve 
Component Employment 2005 study, have made clear that the 
National Guard should have an expanded role in homeland 
security. Other experts agree. Both the Hart-Rudman and the 
Gilmore Terrorism Commissions have both recommended that the 
National Guard be given a more direct role in the war on 
terrorism.
    In close consultation with the Guard, we are currently 
drafting legislation that would do just that. It would build on 
two more narrowly defined missions the Guard has already 
assumed. The Guard currently has a number of civil support 
teams that assess a suspected weapon of mass destruction event, 
advise first responders, and facilitate the assistance of 
additional military forces, if needed. The Guard is used to 
provide support to law enforcement to help stop illegal drugs 
from being imported, manufactured and distributed, and in 
supporting drug demand reduction programs.
    Essentially, the legislation that I am thinking of and we 
sent to your office, Senator Kyl, in hopes that you would like 
to weigh in on this, would establish in each State National 
Guard homeland security forces that, in their non-federalized 
role, would have homeland security as their primary mission. 
That is only in one part. We are not taking the other part of 
providing people for our military.
    The legislation would also provide for appropriate command, 
control and coordination; statutory homeland security duties; 
Governors' homeland security activities plans, similar to those 
for the Guard's counter-drug mission; a National Guard 
resources plan for training, equipment, aviation supports and 
others needs; and, of course, as Senator Bond referred to, 
authorization of funds. The legislation would also help ensure 
that the Guard always supports, not leads, but supports 
civilian agencies and that any change in the Guard's mission 
not degrade our warfighting capabilities.
    So I look forward to hearing testimony from the witnesses. 
It is a distinguished panel.
    I would now like to turn to the ranking member, my good 
friend, the Senator from Arizona, Senator Kyl.

  STATEMENT OF HON. JON KYL, A U.S. SENATOR FROM THE STATE OF 
                            ARIZONA

    Senator Kyl. Thank you very much, Senator Feinstein, and 
thank you for holding this hearing. The topic is obviously 
timely, and I think the logic of the position that the National 
Guard has a key role to play in homeland defense is 
unassailable. Precisely what that means in terms of how we 
proceed obviously is the subject of this hearing, as well as of 
additional work that we will have to do.
    Rather than read my statement in the record, given the 
amount of time that has elapsed here, I think what I will do is 
just ask unanimous consent to put my statement in the record so 
we can immediately hear from the witnesses. I think that will 
be a lot more productive than hearing from me.
    Thank you, Madam Chairman.
    Chairperson Feinstein. Thank you very much, Senator, and I 
really want to work with you on this because all the 
preliminary work that we have done has really indicated a 
considerable support for moving in this direction as long as we 
protect the primary role and as long as we provide necessary 
funds.
    I know the chairman of the committee wanted to say 
something, if he is here. Well, he will be back in 10 or 15 
minutes.
    Could I ask the first panel to come forward, then, and I 
will quickly introduce them.
    Lieutenant General Frank Libutti has assumed the position 
as the Special Assistant for Homeland Security.
    If all of you would come forward, I will just start 
introducing you.
    His responsibilities include establishing a long-term 
homeland security organizational structure for the Department 
of Defense and developing operational solutions to national 
security threats. Lieutenant General Libutti also serves as the 
Department of Defense liaison with the President's Office on 
Homeland Security.
    Next on our panel will be Lieutenant General Russell Davis. 
He is the Chief of the National Guard Bureau and he serves as 
the senior uniformed National Guard officer responsible for 
developing and coordinating policies and programs affecting 
more than half a million National Guard personnel. We are 
delighted to have him and he has been before this committee 
before.
    The next individual is Major General Richard Alexander. He 
is the Executive Director of the United States National Guard 
Association. Before taking that position, he served as the 45th 
president of the organization from 1996 to 1998. He is also the 
former Adjutant General of Ohio and spent over four decades in 
uniform, beginning with his enlistment in the Marine Corps in 
1954.
    The final witness is Major General Paul Monroe, Jr. He was 
appointed as Adjutant General of the State of California 
Military Department by Governor Davis in April of 1999. He has 
been with the California National Guard since he enlisted in 
1961, and as Adjutant General he now leads the largest National 
Guard force in the United States, with an end strength 
numbering more than 16,300 Army and 4,700 Air National Guard 
members.
    General Libutti, we would begin with you, please.

  STATEMENT OF LIEUTENANT GENERAL FRANK G. LIBUTTI (RETIRED), 
    SPECIAL ASSISTANT FOR HOMELAND SECURITY, OFFICE OF THE 
 SECRETARY OF DEFENSE, DEPARTMENT OF DEFENSE, WASHINGTON, D.C.

    General Libutti. Madam Chairman, Senator Kyl, and 
distinguished members of the subcommittee, I appreciate this 
opportunity to appear before you in my role as Special 
Assistant to the interim Department of Defense Executive Agent 
for Homeland Security.
    Madam Chairman, if you will indulge me, I will make a brief 
opening statement and then answer any questions the 
subcommittee wishes to ask.
    The Department of Defense currently views homeland security 
as composed of two principal elements: one, homeland defense, 
and, two, civil support. Homeland defense is a Department of 
Defense-led task to protect the United States from threats and 
aggression in every dimension, land, sea and air. The fighter 
aircraft flying combat air patrols over Washington, New York 
and other major U.S. cities, under the operational control of 
NORAD, are a prime example of a homeland defense mission.
    Civil support is where the Department of Defense assists a 
lead Federal agency, which can include such tasks as supporting 
the Federal Bureau of Investigation with domestic counter-
terrorism, the Federal Emergency Management Agency with 
consequence management, or Health and Human Services against 
biological attacks.
    However, we must not forget that quick resolution of such 
incidents begins with those on the front line and local and 
State first responders, followed by second-echelon State-
controlled National Guard units. Federal assets are the third 
echelon, including unique Department of Defense capabilities on 
a ``by exception'' basis.
    Secretary White, the interim Department of Defense 
Executive Agent for Homeland Security, outlined three major 
objectives to guide us.
    Number one, the Department of Defense must unify its 
efforts to enhance the cooperation and coordination of policy, 
planning, and resource allocation responsibilities as they 
relate to homeland security. Unity of effort will eliminate 
gaps and redundancies, while dramatically improving our 
responsiveness and our efficiency.
    Second, we must develop operational solutions for the 
future. Pending revision of the unified command plan, the 
military responsibilities for homeland security are assigned to 
the unified commanders on an interim basis. The Department of 
Defense is exploring operational solutions for the future, but 
it is important to emphasize that as we look to the future we 
properly balance the apportionment of forces between the needs 
of warfighters abroad and the need to defend the Nation at 
home. Striking a proper balance is absolutely critical.
    Third, we must improve interagency cooperation to guarantee 
that the many Federal, State and local authorities with 
homeland security responsibilities work together swiftly and 
decisively. My staff and I work very closely with Governor 
Ridge and the Office of Homeland Security as they engage the 
interagency coordination process and press forward on homeland 
security improvements.
    As we do so, we remain mindful of the broad and critical 
responsibilities of the Department of Defense to defend our 
Nation against acts of war and terrorism; provide capability 
and capacity to respond to chemical, biological, radiological, 
nuclear, and high-yield explosive incidents, whether 
intentional or unintentional; and support lead Federal agencies 
in the event of natural disasters.
    The National Guard, whether in State or Federal status, is 
an active partner in homeland security. Guardsmen in a State 
status are protecting critical infrastructure throughout the 
United States, and are supporting our consequence management 
efforts as well.
    State Governors, in coordination with the White House, the 
Department of Defense and the Federal Aviation Administration, 
are using Guardsmen to augment security at over 400 commercial 
airports throughout the country. Although operating under the 
control of the Governors, the Federal Government is paying for 
this mission.
    In addition, we have plans to support the Governors of 
States along our northern and southern borders and other lead 
Federal agencies by augmenting the U.S. Border Patrol, the U.S. 
Customs Service and the Immigration and Naturalization Service 
with Guardsmen in a Title 10 or Federal status to support 
Federal security missions.
    Thank you, Madam Chairman. This concludes my statement and 
I look forward to the subcommittee's questions. Thank you, 
ma'am.
    [The prepared statement of General Libutti follows:]

       Prepared Statement of Lieutenant General Frank G. Libutti

    Madame Chairman, Senator Kyl, and distinguished members of the 
Committee, I appreciate this opportunity to appear before you in my 
role as the Special Assistant to the Interim Department of Defense 
Executive Agent for Homeland Security. Madame Chairman, if you will 
indulge me, I will make a brief opening statement and then answer any 
questions the Committee wishes to ask.
    The Department of Defense currently views homeland security as 
composed of two principal elements: homeland defense and civil support.
    Homeland defense is a Department of Defense-led task to protect the 
United States from threats and aggression in every dimension--land, 
sea, and air. The fighter aircraft flying combat air patrols over 
Washington, New York City, and other major U.S. cities under the 
operational control of NORAD are a prime example of a homeland defense 
mission.
    Civil support is where the Department of Defense assists a lead 
federal agency, which can include such tasks as supporting the Federal 
Bureau of Investigation with domestic counterterrorism, the Federal 
Emergency Management Agency with consequence management, or Health and 
Human Services against biological attacks. However, we must not forget 
that quick resolution of such incidents begins with those on the 
``front line,'' the local and state ``first responders,'' followed by 
the ``second echelon,'' state-controlled National Guard units. Federal 
assets are the ``third echelon''--including unique Department of 
Defense capabilities on a ``by exception'' basis.
    Secretary White, the Interim Department of Defense Executive Agent 
for Homeland Security, outlined three major objectives that guide us:
    First, the Department of Defense must unify its efforts to enhance 
the coordination of policy, planning, and resource allocation 
responsibilities as they relate to homeland security. Unity of effort 
will eliminate gaps and redundancies while dramatically improving our 
responsiveness and efficiency.
    Second, we must develop operational solutions for the future. 
Pending revision of the Unified Command Plan, the military 
responsibilities for homeland security are assigned to the unified 
commanders on an interim basis.
    The Department of Defense is exploring operational solutions for 
the future, but it is important to emphasize that, as we look to the 
future, we properly balance apportionment of forces between the needs 
of warfighters abroad and the need to defend the Nation at home. 
Striking a proper balance is absolutely critical.
    Third, we must improve interagency cooperation to guarantee that 
the many federal, state, and local authorities with homeland security 
responsibilities work together swiftly and decisively. My staff and I 
work very closely with Governor Ridge and the Office of Homeland 
Security as they engage the interagency coordination process and press 
forward on homeland security improvements. As we do so, we remain 
mindful of the broad and critical responsibilities of the Department of 
Defense to defend our Nation against acts of war and terrorism; provide 
capacity to respond to chemical, biological, radiological, nuclear and 
high-yield explosive incidents, whether intentional or unintentional; 
and supporting lead agencies in the event of natural disasters.
    The National Guard, whether in State or Federal status, is an 
active partner in Homeland Security. Guardsmen in a state status are 
protecting critical infrastructures throughout the United States and 
supporting in consequence management efforts. State Governors, in 
coordination with the White House, the Department of Defense and the 
Federal Aviation Administration are using guardsmen to augment security 
at over 400 commercial airports throughout the country. Although 
operating under the control of the Governors, the Federal government is 
paying for this mission. In addition, we have plans to support the 
Governors of states along our northern and southern borders and the 
lead Federal agencies by augmenting the US Border Patrol, US Customs 
Service, and the Immigration Naturalization Service with guardsmen in a 
Title 10 or Federal status to support Federal security missions.
    Thank you, Madame Chairman. This concludes my statement and I look 
forward to the Committee's questions.

    Chairperson Feinstein. Thanks, General Libutti.
    General Davis, welcome again.

   STATEMENT OF LIEUTENANT GENERAL RUSSELL C. DAVIS, CHIEF, 
           NATIONAL GUARD BUREAU, ARLINGTON, VIRGINIA

    General Davis. Thank you, Madam Chairman, Senator Kyl, and 
distinguished members of the subcommittee. Thanks again for the 
opportunity to come over and talk to you about the National 
Guard and our role in homeland security.
    On 11 September when the World Trade Towers were attacked, 
two aircraft, F-15s, from the Massachusetts Guard were airborne 
and headed that way prior to the attack. Unfortunately, they 
didn't get there in time. But those militiamen, as did the 
militiamen of 1636, served our country and reacted 
appropriately when needed. Circumstances dictated that they 
come to the aid of the country and they responded.
    During the 1950's, the Air National Guard started sitting 
runway alert, and they continue that and do it today. In like 
manner, the Army National Guard had a role with the Nike 
missiles defending our country, defending our shores for almost 
two decades.
    After that attack, the President asked of our United States 
military, ``be ready.'' I am here to tell you our United States 
military is ready. My response to him is we are--active Guard, 
reserve, Army, Navy, Air Force, Marine, and Coast Guard. It is 
that team that provides readiness to our country.
    Within hours after that attack on the World Trade Center, 
Guardsmen from New York, Massachusetts, Virginia, North Dakota, 
Pennsylvania, and Maryland were right on the scene. They were 
joined by their fellow servicemen from the reserve, as well as 
from the active component. The Guardsmen stand shoulder to 
shoulder with first responders, and they did that day. In New 
York, we still have about 200 Guardsmen who are on duty, in 
State duty, paid for by the State of New York.
    Today, we have about 45,000 National Guardsmen who are on 
duty from all 50 States, the territories, and here in the 
District of Columbia, providing support in operation Noble 
Eagle and Enduring Freedom.
    On 27 September, the President asked the Governors to 
provide support at our airports. And as General Libutti said, 
we have almost 9,000 people out there serving today, guarding 
our airports, providing security and an armed, visible presence 
to assure our American citizens that they will be protected.
    There is no question that there has been a seismic upheaval 
as a result of what happened on 11 September. I would say to 
you that the National Guard is ready. We have both a shield, 
which we use for homeland defense, and a sword, which we 
combine with the other military components to provide that 
combat power that we can project anywhere in the world.
    As I said, within minutes after the hijacked aircraft 
struck, we went from 14 airplanes which we had on alert to 
almost 100 airplanes, providing 24-hour, 7-day coverage over 
many of our major cities in the United States. That force was a 
combination of Air National Guard, active Air Force, the United 
States Air Force Reserve, the United States Navy Reserve, the 
United States Marine Corps Reserve, and active Navy, ships as 
well as aircraft. Numerous other aircraft were involved, 
airlift aircraft and tankers to support the fighters.
    We also had set up these weapons of mass destruction civil 
support teams and they were brought into play. Team number two 
in New York moved down and postured itself to respond to New 
York City, and it did, has done so numerous occasions since 
then, as have the other teams. We are on an accelerated 
schedule to get all of those folks certified, and a very 
active, aggressive team with the United States Army. The 
Department of Defense has made that happen, working in 
partnership with the National Guard.
    Key asset protection: key assets throughout the United 
States are today being guarded by Guardsmen--bridges, power 
plants, nuclear facilities, and key laboratories throughout 
this country.
    But I think it is important that we maintain that dual 
mission of the National Guard, both here at home to perform the 
missions required here, to respond to floods and all the other 
natural disasters and civil disturbances that occur in the 
United States, but also available, and we do have a number of 
people deployed overseas, and I will comment on that a little 
bit later on.
    I want to say we stand with great pride after 365 years 
continuing to serve this great country, being of assistance to 
protect the life and property of American citizens.
    Thank you very much.
    [The prepared statement of General Davis follows:]

       Prepared Statement of Lieutenant General Russell C. Davis

    Good Morning, Madame Chairman and other distinguished members of 
this committee. Thank you for the invitation to testify before you 
today on role of the National Guard in the important Homeland Security 
mission.
    On September 11th, 2001, the first military response to the 
terrible attack on America was led by members of the 102nd Fighter 
Wing, Massachusetts Air National Guard at Otis ANGB. Two F-15 Eagle 
jets from Otis were the first to arrive at the World Trade Center, just 
minutes after United Airlines Flight 175 sliced into the second tower. 
While they were unable to alter the course of history on that morning, 
they now stand guard with renewed vigilance.
    It is fitting that the Massachusetts National Guard responded that 
frightful morning; for it was Massachusetts that formed the first 
militia in the colonies in 1636. Homeland security was a critical 
priority of the Massachusetts Bay Colony when they formed a militia of 
citizen soldiers to defend themselves. For almost 365 years, the 
citizen-soldiers and airmen of the National Guard have been the solid 
shield that has defended America at home, and the sword that America 
has wielded overseas in all her wars since that early period.
    In the 1950's, the Air National Guard was sitting runway alert all 
over America to ``Defend America's Skies'' against enemy air attack. 
The Army National Guard had a similar role during that period manning 
Nike missile defense batteries for almost two decades.
    As the Cold War threat receded, America chose to reduce its 
commitment to Continental Air Defense. America turned to other 
priorities, mostly overseas. The National Guard has played a 
significant role in every major contingency since the Gulf War in 
support of the combatant CINCs.
    Now we have been asked to respond once again. President Bush has 
asked our armed forces to ``Be ready''. We are. He said the hour will 
come when America will act, and ``you will make us proud.''
    Your National Guard is responding everywhere in thousands of ways, 
to the destiny that has been thrust upon us.
    Within hours, National Guardsmen from New York, Massachusetts, 
Virginia, North Dakota, Pennsylvania and Maryland were among the first 
on the scene supporting the responders and civil authorities at the 
scenes of the disaster. National Guardsmen responded to the recent 
tragic events by supporting our governors, the several states, 
territories, and the District of Columbia plus the many other civil 
authorities in answering the needs of our nation.
    The National Guard stood shoulder-to-shoulder with the civil 
responders in this crisis, and remains a vital component of the 
recovery process. We are proud to have supported the brave 
firefighters, EMS and law enforcement officials at the scene of the 
disasters. We provided medical personnel to care for the injured, 
military police to assist local law enforcement officials, key asset 
protection, transportation, communications, logistics, and a myriad of 
other support functions. We are making our resources available as 
needed, to restore order, stability, and safety to our fellow citizens. 
Our newly certified Civil Support Teams provided WMD support in their 
operational debut.
    At the latest count, (Dec 11) about 42,000 Guardsmen from 54 
states, territories, the District of Columbia, and Puerto Rico had been 
called to service in response to Operations ``Noble Eagle''and 
``Enduring Freedom''. We are responding as we are designed--``dual-
missioned,''--to both federal and state requirements.
    The machinery of accessibility has worked just as it was designed, 
and the National Guard has been both prompt and flexible in meeting the 
levy of the President and the governors in responding to the needs of 
the nation and the individual states. Our dual status (state and 
federal) has proved to be a particularly useful feature of our 
organization.
    On September 27, President Bush asked the governors to call up over 
7,000 National Guardsmen to supplement security at the nation's 420 
commercial airports for up to six months. The first National Guardsmen 
were on duty the very next day. They were joined shortly by others. The 
purpose is to restore the faith and confidence of the public in 
commercial air travel until more permanent arrangements can be made. 
Our commercial airline industry is a key link in the national economy 
and vital to our nation's interests. Once again, the governors and the 
adjutants general who command the National Guard at the state level 
responded very rapidly to these requests.
    We were ready and are prepared to ``call out more of the National 
Guard'' as needed for these important missions. National Guardsmen add 
an armed, comforting presence visible to the traveling public. 
Uniformed Guardsmen provide a visible display of American resolve, in 
order to reassure the public and to deter our foes. And not just in the 
airports.
    More will surely follow.
    There is no question that we have experienced a seismic upheaval in 
the way we think about national defense. How did we respond to the 
attack upon us on September 11th? Swiftly, with determination, and 
resolve. Swiftly, because we are in a war and that gives us a sense of 
urgency regarding the safety and security of our citizens. With 
determination and resolve because this war promises to be a long 
campaign. Like the Massachusetts militiamen, we face foes on several 
flanks. The United States must guard against further attacks at home, 
while it prosecutes an expeditionary campaign abroad.
    That is precisely the role of today's National Guard. We are part 
of the same team that is girding itself to provide both the shield of 
homeland defense, and at the same time to wield the sword of combat 
power in support of the Combat CINCs to protect America here at home or 
far from her shores.
    As the president said, our primary task is to ``be ready.'' The 
National Guard must continue to be prepared for our responsibility as 
the first-line, ready--reserve defense force for America. It is the 
combat mission we have always had, at home and abroad, since the first 
Regiments of 1636, through the intervening years, and today, remains 
one of our fundamental responsibilities to recognize these roles 
alongside the combat role.
Review of Activity Since Sept 11, 2001
    Prior to the attacks on September 11, 2001 the National Guard had 
12,400 personnel on duty performing federal and state missions. Over 
450 National Guard members were in state active duty status fighting 
forest fires, protecting our communities from natural disasters, such 
as floods and storms, providing drinking water or electrical power, and 
other domestic missions. Nearly 12,000 National Guard soldiers and 
airmen were deployed in support of CINC or Service requirements world-
wide in a variety of combat and combat support missions, Bosnia/Kosovo, 
Southern and Northern Watch in Southwest Asia, and the enduring air 
sovereignty mission of Air National Guard and 1St Air Force air defense 
units.
    Within minutes to hours of the hijack notification 34 Air National 
Guard fighter units were ``generated'' (prepared for combat 
operations), ready or flying over the Nation's skies performing combat 
air patrol missions, leveraging critical combat skills and equipment, 
including Presidential Aircraft escort. In New York and New Jersey, the 
National Guard immediately began what was to become a response 
involving over 8,000 soldiers and airmen to provide support to efforts 
at the World Trade Center site. Eighteen Air National Guard refueling 
wings, multiple strategic and tactical airlift units (C-5, C-141 and C-
130), along with Army National Guard aircraft, provided necessary lift 
support to the combat air patrols, consequence management activities 
and Enduring Freedom response requirements. National Guard units 
provided rescue support, civil engineers, communications and power 
generation capability, air traffic control, medical teams, chaplains 
and other service support operations, i.e., food and shelter service, 
public affairs and command and control entities. New York's WMD Civil 
Support Team provided analysis confirming the absence of Chemical, 
Biological or Radiological contamination at the scene, thus expediting 
efforts of the fire, police and medical support.
    Since that disastrous day, because of its unique community-based 
structure, the National Guard, significantly increased its ``dual 
mission'' (state and federal) responsibilities to meet the requirements 
of the nation at home and abroad. As I said earlier, about 42,000 
National Guard soldiers and airmen have been called to duty to help 
manage the consequences of the attacks and prosecute the resultant war 
on terrorism.
    The National Guard's unique WMD Civil Support Teams have responded 
to more than 300 suspected chemical/biological incidents in which they 
put their cuttingedge training and technology to precisely the use 
Congress envisioned.
    Even National Guard counterdrug equipment and personnel responded 
to fill specific gaps in transportation, and to provide photo 
reconnaissance and command and control support to Law Enforcement in 
the days immediately following the terrorist attacks.
    In addition, several thousand National Guardsmen are providing 
force protection at military installations and protecting other 
critical assets around the country.
    Finally, the National Guard responded to the President's request to 
provide airport security to more than 400 airports across the nation.
    Today the Guard is performing these missions along with providing 
combat and support units and personnel deployed in the operations to 
defeat terrorism across the globe. As of 26 November 2001, National 
Guard personnel deployed are comprised of 3,000 on state active-duty 
and over 47,000 soldiers and airmen in support of CINC or Service 
requirements worldwide in a variety of combat and combat support 
missions. This is a near three-fold increase since the September 11 
attacks.
Successes In Executing Our Responsibilities
    The mission of the National Guard, like all other military 
organizations, is driven by its the roles and capabilities needed to 
meet the threat; and the resources that must be allocated to sustain 
needed capabilities.
    Let me just recap what went well on and after September 11.
    We were able to get National Guard troops rapidly into federal 
status. Maryland Army National Guard military police units were 
dispatched to provide security at the Pentagon in less than 24 hours 
after the attack. As I mentioned earlier, Air National Guard fighters 
were on the scene within minutes.
    We were able to bring even fairly large amounts of military 
personnel and equipment rapidly to bear on the mission. Even after the 
on-site civilian Incident Command structure was tragically lost during 
the collapse of the World Trade Center, the NY National Guard was able 
to effectively receive and fill requests for support from the FDNY 
``second team'' after they were up and running.
    We were able to employ National Guard forces across state lines. 
New Jersey National Guard readily joined in support of the recovery 
efforts. California-based Cargo Inspection Systems were sent to enhance 
border security operations in the state of New York. The ability of 
National Guard forces to operate across state lines was also perfectly 
demonstrated recently when the state of West Virginia fought floods 
using National Guard assets from five states under provisions of the 
Emergency Management Assistance Compact.
    We were able to integrate requested federal forces into the 
response, in this case because of the unique institution of the New 
York Naval Militia, the Governor of New York was able to gain access to 
Navy and Marine Corps Reserve assets inside his state as they were 
needed.
    Although the National Guard has a long history of very effectively 
responding to domestic emergency situations--every year, in every 
state--we recognize that for a more robust level of Homeland Security 
to exist, some changes are necessary for the National Guard.
    Within 10 days of the attacks, we took steps to establish a NGB 
Homeland Security office to acquire, manage, and distribute the 
necessary resources and information. This office was an expansion on an 
already existing cell and has been the central hub for the nearly 
overnight execution of the airport security mission.
    We established this office because as the National Guard's roles 
and missions in the security of the homeland expands and strengthens, 
we at the National Guard Bureau understand that a commensurately 
expanded capability to oversee that role will be needed. Fortunately, 
the National Guard Bureau has a demonstrated capability and many years 
of successful experience in effectively coordinating across 54 states 
and territories.
The Future of the National Guard in Homeland Security
    Madame Chairman, the National Guard needs to be empowered for 
success on both the homefront and the warfront--precisely where it has 
always been oriented. The tremendous cost-effectiveness of the National 
Guard over large standing forces is not an advantage to be cast aside 
lightly.
    In addition to our current Key Asset and Force Protection missions, 
we are also evaluating other Homeland Defense roles that the National 
Guard could receive as America's homeland security is strengthened.
Dual Mission Orientation is Essential
    The magnificent efficiency of the National Guard has always been 
its orientation on both protecting the lives and property of Americans 
here at home and on going to war to support American interests 
globally.
    The National Guard has participated with distinction in every major 
armed conflict of this nation and this mission should not change. The 
special utility for the Nation is that in addition to being a critical 
war-fighting asset, the National Guard is also a crucial source of 
local and state emergency response support. Both are critically 
important to the nation and keeping both missions together is critical 
to the future strength of the National Guard. The resources, personnel, 
equipment, and training provided to accomplish the war-fighting allow 
the National Guard to support their local and state missions.
    One specific example of this ``dual-missioned'' capability is found 
in the combat capability of National Guard F-16's flying combat air 
patrols over America since day one. These same units rely heavily on 
precision targeting equipment for visual identification while at the 
same time using this same critical equipment in their AEF Air 
Superiority role in Operation Southern and Northern Watch. The National 
Guard clearly could take on a greater role in performing the Homeland 
Security mission, however it is equally or more important than ever 
that it maintain its combat and combat support mission capability. All 
adversaries and enemies of the United States take note when the 
National Guard is deployed in our combat conflicts because they 
recognize the National Guard as the grass roots support of the local 
people in that conflict.
Summary
    In summary, Madame Chairman and Distinguished Members of the 
Committee the National Guard has tremendous local and state-based, 
quick response capability to support the local, state and federal 
agencies in accomplishing the Homeland Security Mission. It has been 
performing that role at the local, state and federal level since its 
inception 365 years ago today. It will continue in the important effort 
to protect and defend our nation against all enemies foreign (as 
deployed combat forces) and domestic (as Homeland Security forces.)
    It has been my distinct pleasure to be here today, I thank you for 
the opportunity to testify on this critically important aspect and 
mission of the National Guard. I welcome any questions you may have.

    Chairperson Feinstein. Thank you very much, General Davis.
    General Alexander?

  STATEMENT OF MAJOR GENERAL RICHARD C. ALEXANDER (RETIRED), 
 EXECUTIVE DIRECTOR, NATIONAL GUARD ASSOCIATION OF THE UNITED 
                    STATES, WASHINGTON, D.C.

    General Alexander. Madam Chair, thank you so much for this 
invitation to appear before this subcommittee and present the 
views of the more than 40,000 officers in the National Guard 
Association of the United States, and also the 54 adjutants 
general of our States and territories.
    The National Guard, in accordance with the U.S. 
Constitution and longstanding integration with Federal, State 
and local authorities, uniquely connects every fire hose to the 
Pentagon and every State house to the White House.
    Although there is a need for selected units and personnel 
to be dedicated primarily or exclusively to homeland security, 
the homeland security mission can be most effectively and 
efficiently accomplished as a dual mission that complements, 
enhances, and draws its essential strength from the National 
Guard's continued combat force structure, its training and 
experience. This is as referenced in the Hart-Rudman Commission 
report for Phase 3.
    Specifically, the Adjutants General Association and the 
National Guard Association of the United States urge 
implementation of the following key tenets for a successful 
homeland security strategy.
    The statutory charter of the National Guard Bureau should 
be amended to reflect its unique role as a channel of 
communication between the States and the national security 
authorities. The Bureau is the official channel of 
communication between the several States and the Department of 
the Army and the Department of the Air Force. The charter 
should be amended to also make the Bureau the channel of 
communication for homeland security between the several States 
and the supported CONUS CINC, the Chairman of the Joint Chiefs 
of Staff, the Secretary of Defense, and the Assistant to the 
President for Homeland Security; also, authorize and fund a 
program for National Guard execution of a Governor's plan for 
homeland security.
    Program oversight and resourcing would be primarily 
provided by the National Guard Bureau based upon the decade-
long National Guard counter-drug program model, in which each 
State Governor adopts and administers a program of full-time 
National Guard support, with AGRs, for law enforcement 
agencies. Within prescribed national standards and guidelines 
enforced by the Bureau, the Governor's plan for each State and 
territory marshals Guard resources to best meet the unique 
needs of each State and territory.
    Provide funding to the National Guard Bureau to complete 
the fielding of the National Guard civil support teams in each 
State and territory; also, authorize and fund a program for 
organizing and training and equipping National Guard units for 
homeland security missions. Oversight of the homeland security 
mission should be provided by the National Guard Bureau based 
upon longstanding garden plot models in which National Guard 
units are trained and equipped to support civil authorities in 
crowd control and civil disturbances.
    The program should also authorize and fund National Guard 
training with civil authorities, to include local first 
responders to assure a heightened state of collective 
preparedness for consequence management of domestic chemical, 
biological, radiological, nuclear, and explosive events.
    Also, the strategy should embrace the standardized 
equipping of State contingency stocks with chemical, 
biological, radiological, nuclear, and explosive equipment, and 
the equipping of State task forces with modern National Guard 
communications and transportation assets. Each State and 
territory should have self-contained National Guard aviation 
assets capable of air-lifting civilian and military homeland 
security personnel and equipment within and outside the State 
or territory.
    Further, the strategy should include increased full-time 
support to the National Guard military support offices in each 
State, territory, and the District of Columbia. Increased full-
time National Guard homeland security staffing at the National 
Guard Bureau and Joint Forces Command should also be a 
consideration in this strategy.
    It should also authorize and establish a joint State task 
force in each State, territory, and the District of Columbia 
that is staffed appropriate to each mission that will be 
scalable in organizational structure and personnel in modular 
units with a variable command structure dependent upon the size 
of the task force, and also staffed by Army and Air National 
Guard soldiers and airmen with emergency planning and liaison 
officers from the Federal reserve components.
    Further, we should have a National Guard officer in Title 
10 status, if necessary, to exercise command and control of 
Title 10 military personnel who are added to this task force. 
The grade of the National Guard task force commander should be 
determined by the size and composition of the task force and be 
under the tactical control of the adjutant general and, in 
turn, the Governor in order to assure unity of command and 
unity of purpose. This would occur when Federal forces are 
called into a State. Further, it should support the State and 
Federal response plans.
    One final element needs to be emphasized on behalf of the 
Nation's Governors. Use of the National Guard as a primary 
fusion agent in executing a balanced, integrated national 
domestic security strategy preserves the constitutional role of 
the sovereign States, and assures that Governors and other 
State and local civil authorities remain responsible and 
accountable for public safety and security of their State, 
territory, or local jurisdiction.
    The use of the National Guard in State active-duty status 
and in Federal pay status under Title 32 permits military 
forces under the control of the Governor to assist civil 
authorities in executing all the laws, Federal, State and 
local, without violating Posse Comitatus.
    Madam Chair, that completes my remarks. Again, I thank you 
for this opportunity to appear before this subcommittee and I 
am ready to respond to any questions you might have at your 
convenience. Thank you.
    [The prepared statement of General Alexander follows:]

        Prepared Statement of Major General Richard C. Alexander

                 agaus point paper on homeland security
    The National Guard, in accordance with the U.S. Constitution and 
long-standing integration with federal, state and local civil 
authorities, uniquely connects every firehouse to the Pentagon and 
every state house to the White House. The Adjutants General Association 
of the United States (AGAUS) and the National Guard Association of the 
United States (NGAUS) therefore urge the President to direct the 
Secretary of Defense, and request the Congress where necessary, to 
authorize, support, equip and fund the National Guard to assume a 
primary homeland security mission. Although there is a need for 
selected units and personnel to be dedicated primarily or even 
exclusively to homeland security, the homeland security mission can be 
most effectively and efficiently accomplished as a dual mission that 
compliments, enhances and draws its essential strength from the 
National Guard's continued combat force structure, training, and 
experience (see the Hart-Rudman Commission's Phase 3 Report).
    Specifically, AGAUS and NGAUS urge implementation of the following 
key tenets of a successful homeland security strategy:
          1. The statutory charter of the National Guard Bureau should 
        be amended to reflect its unique role as a channel of 
        communications between the states and national security 
        authorities. The Bureau is the official channel of 
        communications between the several states and the Department of 
        the Army and Department of the Air Force. (10 USC 10501(b)). 
        The charter should be amended to also make the Bureau the 
        channel of communications for homeland security between the 
        several states and the supported CONUS CINC, the Chairman of 
        the Joint Chiefs of Staff, the Secretary of Defense and the 
        Assistant to the President for Homeland Security.
          2. Authorize and fund a program for National Guard execution 
        of a Governor's Plan for Homeland Security. Program oversight 
        and resourcing would be provided by the National Guard Bureau 
        based on the decade-long National Guard Counter drug Program 
        model in which each state's Governor adopts and administers a 
        program of full-time National Guard support (AGRs) for law 
        enforcement agencies. Within prescribed national standards and 
        guidelines enforced by the Bureau, the Governor's Plan for each 
        state and territory marshals Guard resources to best meet the 
        unique needs of each state and territory.
          3. Provide funding to the National Guard Bureau to complete 
        the fielding of National Guard Civil Support Teams (CSTs) in 
        each state and territory. (See NEMA-AGAUS-NGAUS-IAEM White 
        Paper on Domestic Preparedness)
          4. Authorize and fund a program for organizing, training and 
        equipping National Guard units for Homeland Security missions. 
        Oversight of the homeland security mission should be provided 
        by the National Guard Bureau based on the long-standing Garden 
        Plot model in which National Guard units are trained and 
        equipped to support civil authorities in crowd control and 
        civil disturbance missions. The program should also authorize 
        and fund National Guard training with civil authorities, to 
        include local first responders, to assure a heightened state of 
        collective preparedness for consequence management of domestic 
        CBRNE events. (See NEMA-AGAUS-NGAUS-IAEM White Paper on 
        Domestic Preparedness)
          5. Prioritize standardized equipping of state contingency 
        stocks with CBRNE equipment, and the equipping of state task 
        forces with modern National Guard communications and 
        transportation assets. Each state and territory should have 
        self-contained National Guard aviation assets capable of 
        airlifting civilian and military homeland security personnel 
        and equipment within and outside the state or territory. (See 
        NEMA-AGAUS-NGAUS-IAEM White Paper on Domestic Preparedness)
          6. Increase full-time support to the National Guard military 
        support offices of each state, territory and the District of 
        Columbia. Increase full-time National Guard homeland security 
        staffing at the National Guard Bureau and Joint Forces Command/
        CJTF-CS.
          7. Authorize and establish a joint state task force in each 
        state, territory and the District of Columbia that is staffed 
        appropriate to each mission and which is:
                  A. Scalable in organizations structure and personnel 
                in modular units with a variable command structure 
                dependent upon the size of the task force; and
                  B. Staffed by Army and Air National Guard soldiers 
                and airmen with EPLOs from the federal Reserve 
                Components; and
                  C. Commanded by a National Guard officer (in Title 10 
                ADSW status if necessary to exercise command and 
                control of Title 10 military personnel who are added to 
                the task force). The grade of the National Guard task 
                force commander should be determined by the size and 
                composition of the Task Force; and
                  D. Under the tactical control (TACON) of the Adjutant 
                General and, in turn, the Governor in order to assure 
                unity of command and unity of purpose.
                  E. Supportive of the state and federal response 
                plans.
                  F. The National Guard POMSO Office would provide the 
                nucleus, planning and exercise functions for the 
                standing task force element.
          8. The Office of Homeland Security should include a National 
        Crisis Action Center (NCAC) directed by a two-star National 
        Guard general, with full-time representation from the other 
        federal agencies involved in homeland security. (see Hart-
        Rudman Commission report at p. 17)
    One final element needs to be emphasized on behalf of the nation's 
governors. Use of the National Guard as a primary fusion agent in 
executing a balanced, integrated national domestic security strategy 
preserves the constitutional role of the sovereign states and assures 
that governors and other state and local civil authorities remain 
responsible and accountable for the public safety and security of their 
state, territory or local jurisdiction. Use of the National Guard in 
state active duty status and in federal pay status under Title 32, USC 
permits military forces under the control of the governor to assist 
civil authorities in executing all laws, federal, state and local, 
without violating the Posse Comitatus Act. Any attempt to repeal or 
substantially amend the Posse Comitatus Act would be met by a firestorm 
of resistance from the nation's governors and state and local civil 
authorities.
    AGAUS--15 October 2001

    Chairperson Feinstein. Thanks, General Alexander.
    General Monroe, welcome to Washington.

   STATEMENT OF MAJOR GENERAL PAUL D. MONROE, JR., ADJUTANT 
      GENERAL, STATE OF CALIFORNIA, SACRAMENTO, CALIFORNIA

    General Monroe. Thank you, Madam Chairwoman, and good 
afternoon to Senator Kyl, too. I want to thank you for the 
opportunity to provide insights from a State perspective on the 
role of the National Guard in the important homeland security 
mission.
    While the issue of homeland security is one that has 
recently been thrust in the forefront of national awareness, it 
is important to recognize that these issues and concerns have 
been a central element of readiness, daily planning and 
operations at the State level for many years. My remarks today 
are a reflection based on the experience gained from State 
mobilizations for earthquakes, floods, wildfires, and civil 
disturbances. I have been involved in Federal mobilizations to 
support national security events during Vietnam, Desert Storm, 
and virtually every conflict or peace-keeping activity since.
    There are many important reasons for considering the role 
of the National Guard in homeland security. Allow me to 
describe a few of the most crucial that are key to our success 
and ultimately to the success of homeland security of our 
Nation.
    Specifically, this mission belongs to the National Guard. 
The National Guard is uniquely positioned to support homeland 
security for three reasons. First, we are the Nation's homeland 
force. This is why our Founders established the militia. Our 
units are located in over 300 communities across the United 
States--
    Chairperson Feinstein. Three thousand.
    General Monroe. Three thousand. Thank you very much.
    The District of Columbia, the Commonwealth of Puerto Rico, 
and the territories of Guam and the U.S. Virgin Islands. More 
importantly, we have been the homeland security force since 
1636, with the formation of the first unit in Massachusetts.
    The National Guard supports civil authorities in a myriad 
of missions, from community and national security to natural 
disasters and civil disturbances. We have also supported civil 
authorities in missions ranging from the war on drugs to 
participating in programs to encourage the youth of our Nation 
to embrace the value of education and the social skills that 
define the fabric of our Nation.
    Finally, the National Guard is an integral element within 
each State government, fully integrated into the States' 
emergency response systems, even serving in many cases as the 
Governor's executive agent for emergency management, and in all 
cases the Governor's trained, equipped and deployable force to 
meet immediate emergency situations.
    Homeland security is not the single mission of the National 
Guard, but one that should be codified in law and resourced in 
conjunction with identified requirements. Current National 
Guard force structure is designated by the active services to 
support their warfighting requirements, and that resource 
should be maintained as the most cost-effective method to meet 
the needs of the active services.
    Adding force structure to the National Guard makes strong 
fiscal and operational sense for two reasons. First, adding 
homeland security capabilities to the National Guard, as 
opposed to other components, increases both Federal and State 
response capabilities. This is because a full spectrum of 
assets are available to both the Governor and for Federal 
mobilization.
    Migrating current combat and combat support capabilities 
away from the National Guard to other components would reduce 
the available support to the active component until the same 
capabilities could be generated elsewhere.
    Secondly, current capabilities of the National Guard 
provide the capacity currently required by each Governor in 
exercising military support for civil authorities within their 
State. Any capabilities that are migrated out of the National 
Guard become unavailable to the Governor, except under Federal 
mobilization.
    Homeland security is a function that requires national 
authorization and coordination. However, planning and execution 
is best accomplished at the State and local level. In all 
cases, military support activities under homeland security will 
be subsequent to and in concert with local first responders, 
such as police, sheriff, firefighters, medical personnel, and 
emergency management offices.
    This support role necessitates close coordination and 
planning well in advance of any development and response to any 
specific incident. This planning is best accomplished between 
the primary first responders and the National Guard, who are 
the military first responders. In virtually every State, this 
planning and coordination is routinely accomplished between the 
first responders and the National Guard as part of the current 
incident response system.
    The appropriate response for supporting homeland security 
is to balance the current capabilities of the National Guard 
with the increased needs for this most recent mission. To meet 
these requirements in the most cost-efficient manner, the 
National Guard needs to establish a core of dedicated units and 
capabilities for homeland security.
    It is not necessary to have 100 percent of the requirements 
in dedicated structure. The likelihood is slight that all 
National Guard units within a State would be federally 
mobilized in support of the Army and Air Force concurrent with 
requirements for homeland security. But it is possible that 
relying solely on federally-deployable units to plan, 
coordinate, exercise and conduct homeland security missions 
could result in the need for two critical missions being 
simultaneously required.
    For example, currently the majority of the military police 
units in California have been federally mobilized to support 
Army and Air Force Federal missions. Yet, many of the missions 
currently underway in California could best be accomplished 
with these types of units. It is certainly reasonable to 
anticipate that assets that are in demand for homeland security 
could also be in demand for Federal activation at times of 
crisis, so some redundant capabilities may be necessary.
    To facilitate economy of scale, career management, training 
efficiencies, and to protect current Federal mobilization 
requirements, establishing a limited dedicated force for 
homeland security, sized to meet the unique requirements of 
each State, should be authorized.
    There has been demonstrated a recurring need for a national 
method of connecting responsible agencies across local and 
State, as well as agency boundaries. After-action reviews of 
recent events show that this significantly impacts the 
efficiency of homeland security missions. The National Guard is 
in the process of fielding a nationwide network called GUARDNET 
that, if extended to all National Guard facilities, would 
provide low-cost access to first responders nationally.
    Extending GUARDNET to all National Guard facilities and 
first responders could resolve the issue of the lack of an 
integrated warning information system such as that identified 
by authors Colonel Randall J. Lawson and Dr. Ruth A. David in 
their article.
    Chairperson Feinstein. General Monroe, I neglected to tell 
you about the red light. We are asking people generally to be 
confined to 5 minutes. If you could possibly sum up briefly, 
then we will get to questions.
    General Monroe. Indeed.
    Chairperson Feinstein. Senator Kyl and I both have an 
Intelligence Committee hearing in about a half hour and I think 
we need to go to that.
    General Monroe. And I probably would have gone that long if 
you hadn't stopped me.
    In summary, then, the National Guard is the logical source 
for first military responders for homeland security. That need 
can best be met through limited increases to the National Guard 
force structure capability dedicated to this mission.
    The national command authority must establish overall 
policy and maintain oversight of the development and training 
of these new responsibilities. However, each State must develop 
its own plan, based on Federal policy, that best meets the 
unique needs of each State. Success will be achieved through 
proper organization, equipping and training those National 
Guard units to meet critical shortfalls in accordance with the 
Governors' State plans and ensuring connectivity and 
coordination between the civilian and military first 
responders.
    Homeland security requirements are an extension of the 
current military support-civil authority mission continuum that 
has been the hallmark of National Guard operations for over 350 
years. With proper authorization and resources, the National 
Guard will accomplish this mission requirement with 
distinction, with no degradation to the support we have 
committed to the Army and the Air Force.
    Thank you.
    [The prepared statement of General Monroe follows:]

        Prepared Statement of Major General Paul D. Monroe, Jr.

    Good Morning, Madam Chairwoman and other distinguished members of 
this committee. Thank you for allowing me this opportunity to provide 
insights from the states perspective, on the role of the National Guard 
in the important Homeland Security mission
    While the issue of homeland security is one that has recently been 
thrust to the forefront of national awareness, it is important to 
recognize that these issues and concerns have been a central element of 
readiness, daily planning and operations at the state level for many 
years. My remarks today are a reflection, based on the experience 
gained from state mobilizations for earthquakes, floods, wildfires, and 
civil disturbances. I have been involved in federal mobilizations to 
support national security events dating to Viet Nam, Desert Storm, and 
virtually every conflict or peacekeeping activity since.
    There are many important reasons for considering the role of the 
National Guard in homeland security. Allow me to describe a few of the 
most crucial that are key to our success, and ultimately to the success 
of homeland security for our nation. Specifically:
    1. The Mission Belongs to the National Guard
    The National Guard is uniquely positioned to support Homeland 
Security for three reasons.
          a. First, we are The Nation's homeland force. This is why our 
        founders established the Militia. Our units are located in over 
        3000 communities across the United States, the District of 
        Columbia, the Commonwealth of Puerto Rico, and the Territories 
        of Guam and The US Virgin Islands.
          b. More importantly, we have been the homeland security force 
        since 1636 with the formation of the first unit in 
        Massachusetts. The National Guard supports civil authorities in 
        a myriad of missions, from community and national security to 
        natural disasters and civil disturbances. We have also 
        supported civil authorities in missions ranging from the war on 
        drugs to participating in programs to encourage the youth of 
        our nation to embrace the values, education, and social skills 
        that define the fabric of our nation.
          c. Finally, the National Guard is an integral element within 
        each state government, fully integrated into state emergency 
        response systems, even serving in many cases as the governor's 
        executive agent for emergency management, and in all cases as 
        the governor's trained, equipped, and deployable force to meet 
        immediate emergency situations.
    2. Increase the Capability of the National Guard, without 
transferring existing capabilities to other components of the Armed 
Services.
    Homeland Security is not the single mission of the National Guard 
but one that should be codified in law and resourced in conjunction 
with identified requirements. Current National Guard force structure is 
designated by the active services to support their war fighting 
requirements, and that resource should be maintained as the most cost-
effective method to meet the needs of the active services.
    Adding force structure to the National Guard makes strong fiscal 
and operational sense for two reasons. First, adding Homeland Security 
capabilities to the National Guard, as opposed to other components, 
increases both the federal and the state response capabilities. This, 
because the full spectrum of assets are available to both the Governor 
and for Federal Mobilization. Migrating current combat and combat 
support capabilities away from the National Guard to other components 
would reduce the available support to the active component, until the 
same capabilities could be generated elsewhere. Secondly, current 
capabilities of the National Guard provide the capacity currently 
required by each governor in exercising military support to the civil 
authorities within their state. Any capabilities that are migrated out 
of the National Guard become unavailable to the governor, except under 
federal mobilization.
    3. The need for Local Control
    Homeland Security is a function that requires national 
authorization and coordination, however, planning and execution is best 
accomplished at the state and local level. In all cases, military 
support activities under homeland security will be subsequent to, and 
in concert with, local first responders such as; police, sheriff, 
firefighters, medical personnel, and emergency management offices. This 
support role necessitates close coordination and planning well in 
advance of any deployment in response to any specific incident. This 
planning is best accomplished between the primary first responders and 
the National Guard, who are the military first responders. In virtually 
every state, this planning and coordination is routinely accomplished 
between the first responders and the National Guard as part of the 
current incident response system.
    4. The Need for Limited Dedicated, Scaleable Force Structure.
    The appropriate response for supporting Homeland Security, is to 
balance the current capabilities in the National Guard with the 
increased needs for this most recent mission. To meet these 
requirements in the most cost efficient manner, the National Guard 
needs to establish a core of dedicated units and capabilities for 
Homeland Security. It is not necessary to have 100% of the requirements 
in dedicated structure. The likelihood is slight that all National 
Guard units within a state would be federally mobilized in support of 
the Army and Air Force, concurrent with requirements for Homeland 
Security.
    But, it is possible that relying solely on federally deployable 
units to plan, coordinate, exercise, and conduct homeland security 
missions could result in the need for two critical missions being 
simultaneously required. For example, currently, the majority of the 
military police units in California have been federally mobilized to 
support Army and Air Force federal missions, yet many of the missions 
currently underway in California could best be accomplished with these 
types of units. It is certainly reasonable to anticipate that assets 
that are in demand for Homeland Security could also be in demand for 
federal activation in times of crisis, so some redundant capabilities 
may be necessary. To facilitate economy of scale, career management, 
training efficiencies, and to protect current federal mobilization 
requirements, establishing a limited dedicated force for homeland 
security, sized to meet the unique requirements of each state, should 
be authorized.
    5. The Need for Connectivity
    There has been demonstrated a reoccurring need for a national 
method of connecting responsible agencies across local and state as 
well as agency boundaries. After action reviews of recent events show 
that this need significantly impacts the efficiency of homeland 
security missions. The National Guard is in the process of fielding a 
nationwide network called GUARDNET that, if extended to all National 
Guard facilities, could provide low cost access to first responders 
nationally. Extending GUARDNET to all National Guard facilities and 
first responders could resolve the issue of the lack of an integrated 
warning/information/coordination system, such as that identified in 
Homeland Defense: State of the Union, May 2001 (Col Randall J Larson & 
Dr. Ruth A. David)
    6. The need for coordinated training
    One need look no farther than the recent events of 9-11 to 
recognize the need for a standardized and coordinated training effort 
that ties together all of the various elements that respond to homeland 
security and Military Support to Civil Authorities. The greater the 
event, the more critical coordinated training in advance of the 
incident becomes. When a military organization responds in direct 
support of a single agency, on-site coordination and training can be 
effective. When an event reaches the proportions of the events of 
September 11, the criticality of immediate response can quickly 
overcome the availability of training time.
    Deploying first responders, be they civil authorities or soldiers 
as first military responders, with inadequate or ad hoc training 
diminishes the effectiveness of the response and increases the 
potential for error. The National Guard has developed and is deploying 
a Distributed Training Technology Program that provides two way audio-
visual and data capabilities.
    Today in the United States, approximately 74% of the 30,000 fire 
departments are staffed primarily by volunteer fire fighters. The 
785,000 volunteer fire fighters would benefit tremendously by having 
state-of-the-art training available through their local National Guard 
armory, and the Guard's Distributed Training Technology Program can 
provide that capability.
    Another example of the complexity and breadth of the training 
requirement is the law enforcement community in California. California 
has 525 different local law enforcement agencies. These include 58 
county sheriffs and 5 county marshals, 349 police departments, 10 
police departments of the University of California, 23 State College 
police departments, 19 police departments at the public school level, 
and 31 community college police departments; plus the California 
Highway Patrol and various transit police departments as well as 
federal agencies that could respond to major events within the state.
    Accelerating and extending the fielding of the Distributed Training 
Technology Program (DTTP) would serve three purposes.
    First, the military readiness of the National Guard to respond to 
both Homeland Security and National Defense missions would be greatly 
enhanced.
    Second, the DTTP classrooms would provide first responders access 
to state of the art training, provided locally, on a schedule that 
meets the requirements of the local volunteer. This training can 
include incident response training, initial and refresher training, and 
coordinating activities across functional and departmental lines.
    Finally, the capability of two way voice & data communications 
(Video-Tele Conferencing) at the local level provides the capability 
for continued governmental operations during crisis situations by 
enabling each armory to serve as a local incident command center or 
alternate government office.
    7. The need for a state specific plan
    The need for a plan that is specific to each state's requirements 
cannot be over-stated. No two states will have the same homeland 
security needs. To begin with, the potential mission requirements will 
vary from state to state. While some states, such as California, may 
have requirements to plan for supporting seaport activities, others 
will not. Some states coordinate with federal agencies to address 
international borders. Additionally, each state has their own unique 
mix of first responders and existing National Guard capabilities. Most 
critically, the governor of each respective state is individual who 
bears the responsibility for planning and conducting emergency 
operations. Whether these incidents are natural disasters or acts of 
terrorism, the governor is responsible for the public safety of the 
citizens of each state.
    The final program adopted by this Congress must provide to the 
governor the means to develop (within reason of course) a capability 
and resource mix that balances needs of the state with existing 
capabilities and allocates new resources to those requirements that 
mitigate the greatest risk. Additionally, states need to be able to use 
commercial off-the-shelf technologies to meet specialized requirements, 
whenever this method is proven to be most effective.
    It is anticipated that the majority of requirements in state 
specific plans will center on six major functions to strengthen 
capabilities within the state. These are:
          a. Command, Control, and Liaison Capabilities to plan, 
        practice, and perform the integration of military assets and 
        civilian first responders to best meet the needs of the state.
          b. Fill critical transportation requirements for both ground 
        transportation and aviation shortfalls. We recognize from 
        recent operations that timeliness is critical in responding to 
        homeland security requirements, and in most states the 
        available transportation assets are woefully inadequate to 
        support projected needs.
  <bullet> The aviation posture of the National Guard on 9/11 was that 
        over 54% of our fleet of aircraft was obsolete and targeted for 
        retirement with no replacements in the pipeline. The current 
        proposal is to retire the current Viet Nam era airframes and to 
        re-allocate the remaining airframes, (dating to 1977) across 
        the entire force. The net impact will be a reduction from the 
        current 1100 Utility & Cargo airframes (CH47, UH1, UH60 only) 
        to an end state of 799, an overall reduction of nearly 28% The 
        relative impacts on representative states is as follows:
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
  <bullet> In California, we are short 440 HUMMV vehicles (nationally 
        the shortfall to meet current requirements is in excess of 6000 
        vehicles), we are short 185 line haul tractors, and our cargo 
        truck fleet includes over 1100 trucks that date to 19531973. 
        While this represents the current situation in California, I 
        suspect a similar situation exists throughout the National 
        Guard.
  <bullet> Furthermore, these trucks are specifically designed for off-
        road applications, which limits their speed, their cargo 
        hauling capabilities, and their fuel efficiency. Anyone stuck 
        behind a National Guard Convoy on a two-lane road 
        understandsthe limitations of applying tactical vehicles to 
        over-the-road applications.
          c. Chemical-Biological Reconnaissance and Decontamination. 
        Some states, such as California have been assigned Civil 
        Support teams, but the majority of states are still short this 
        capability, and in large states additional teams may well be 
        required. In the three months following 9/11, the 9th Civil 
        Support Team, stationed in California, has already responded to 
        eight different deployments, including deploying across state 
        lines for a national event.
          d. Medical Response Capabilities. Virtually all medical 
        capabilities, in excess of basic first aid medics, have been 
        removed from the Army National Guard. This has severely reduced 
        the Governor's homeland security medical response capability. 
        The US Air Force Surgeon General and the Air National Guard 
        have developed a low cost solution that will provide an 
        excellent medical response for both natural disasters and 
        homeland security events.
          e. Law Enforcement Capabilities. The value of additional law 
        enforcement resources for homeland security assets cannot be 
        overstated. Most of the current deployments both in California 
        and nationally could be best accomplished with trained, 
        equipped law enforcement units, but most of our law enforcement 
        trained units have already been deployed to federal missions, 
        in many cases outside the state.
          f. Engineer Capabilities. As with medical capabilities, much 
        of the engineering capabilities in excess of battlefield 
        engineering have been migrated outside the National Guard. In 
        California, we have lost our vertical construction 
        capabilities, our earthmoving and infrastructure repair 
        capabilities, and most critically, our bridging assets. While 
        it would appear that there is little call for emergency 
        bridging in homeland security, every year while we still had 
        the capability, our bridge unit was deployed to rescue people 
        stranded by floods or bridge failures, and to capture and 
        recover structures and items that were creating safety and 
        navigation hazards. Additionally many states may need to 
        develop Explosive Ordinance Disposal or Urban Search and Rescue 
        capabilities.
    8. The need for dedicated resources.
    It is critical that in developing America's response to preparing 
for homeland security we stand ready to provide the resources required 
by the individual plans of each state. This will not be inexpensive, 
but it is critical to the success of homeland preparedness.
    Based on the critical shortfall in aviation, one should anticipate 
that many states require additional aviation to accomplish homeland 
security requirements. The current cost of an 8 helicopter Blackhawk 
company, critical for rapid transportation of personnel and supplies, 
search and rescue, medivac operations, command and control, and other 
transportation support can easily exceed 100 million dollars each.
    The cost of equipping a nuclear, chemical, biological 
decontamination unit is between 7 and 8 million dollars, depending on 
the equipment mix.
    The cost of establishing regional training capabilities to 
facilitate integration of civil and military operations is estimated 55 
million dollars.
    9. Homeland Security: a mission continuum not a conversion
    From my experience, the most effective way to meet evolving needs 
is to adapt the proven system currently in place rather than develop a 
new bureaucracy. By tradition and by law, during normal peacetime 
operations the National Guard provides first, and usually all, Military 
Support to Civil Authorities. Processes and procedures are already in 
place and utilized for the National Guard to respond to the needs of 
civil authorities, whatever those needs are and however large they are.
    The system was tragically exercised by the terrorist attacks of 9-
11, and the system worked. Even under the most dire conditions, faced 
with circumstances no one could envision beforehand, emergency response 
managers adapted the processes of the current system to bring into 
place all the required capabilities of the National Guard.
    The New York National Guard initially responded to the exigent 
needs of the situation, then adapted its response to meet the needs 
identified by civil authority, which it is still doing today. The 
response of the New York National Guard, assisted by the National 
Guards of New Jersey, Connecticut, the National Guard Bureau, and, if 
only in a small way, the California National Guard, was in keeping with 
the best traditions of the National Guard. The heroic response of all 
the emergency responders is an affirmation of the proficiency of the 
emergency response system.
    10. The need for early and frequent dedicated coordination
    An adage we use in the military is that we fight as we train. More 
correctly in this context is that those actions and activities that 
have been pre-coordinated and rehearsed in peace, become routine and 
fluid during crisis periods. It is absolutely critical to recognize 
that unlike most military operations, 100% of homeland security 
operations will be in response to unfriendly acts accomplished in 
friendly environments.
    The effectiveness of the integration of military support into a 
local situation will be dependent on the extent of pre-coordination and 
cooperation that exists at the outset. It is for this reason that we in 
California feel so strongly that in establishing the structure 
necessary for homeland security, it not be an ad-hoc organization, but 
rather one that is dedicated to the coordination, liaison, planning and 
execution of Homeland Security as a primary mission focus.
    Additionally, the design of the structure must be flexible enough 
to accommodate the unique needs of each state. It is unlikely that few 
other states will face the same breadth of coordination with law 
enforcement personnel that we have in California. Conversely, it is 
likely that more rural states will have a greater need for coordination 
with volunteer firefighting agencies, and all states will face ongoing 
challenges to balance legal and environmental concerns, coordination 
challenges, and training shortfalls. Only through ongoing liaison and 
coordination with local, state, and federal government, first 
responders, and the general public, can these concerns be best 
satisfied.
Summary
    In summary, the National Guard is the logical source of first 
military responders for homeland security. That need can best be met 
through limited increases to the National Guard force structure 
capability, dedicated to this mission. The National Command Authority 
must establish overall policy, and maintain oversight of the 
development and training of these new responsibilities. However, each 
state must develop its own plan, based on federal policy, that best 
meets the unique needs of each state Success will be achieved through 
proper organization, equipping, and training those National Guard units 
to meet critical shortfalls (in accordance with the Governors State 
Plans) and ensuring connectivity and coordination between the civilian 
and military first responders.
    Homeland Security requirements are an extension of the current 
Military Support to Civil Authority mission continuum that has been a 
hallmark of National Guard operations for over 350 years. With proper 
authorization and resources, your National Guard will accomplish this 
mission requirement with distinction and with no degradation to the 
support we have committed to the Army and Air Force.
    It has been my distinct pleasure to be here today, I thank you for 
the opportunity to testify on this critically important aspect and 
mission of the National Guard.
    I welcome any questions you may have.

    Chairperson Feinstein. Thank you, General Monroe.
    I will begin the questions.
    The first question is for General Libutti. Attorney General 
Ashcroft and Canadian Cabinet members recently entered into 
agreements to tighten security along the U.S.-Canadian border. 
Under these agreements, it is my understanding that 600 United 
States National Guard troops will augment overworked Customs 
and Immigration agents at the border, and also help speed up 
commerce. I believe the mission is supposed to last 6 to 12 
months.
    I am informed that the Defense Department decided last 
Friday that the National Guard will be federalized--that is, 
mobilized under Title 10 of the U.S. Code--rather than remain 
under the control of the relevant State Governors; that is, 
mobilized under Title 32 of the U.S. Code. However, I am also 
told that the Justice Department believes that this is an issue 
still ``under discussion.''
    My question is this: has this administration decided yet 
whether the National Guardsmen, given this border security 
mission, will be federalized?
    General Libutti. Yes, ma'am. In response to, I think, what 
I discern as the two primary questions--one is what is the 
status in terms of whether they are federalized or not, and 
then how indeed do we see them in support of other lead Federal 
agencies--the answer is, number one, they will be federalized, 
and the decision taken to do that under Title 10 is correct, 
yes, ma'am.
    The second piece is that these forces, and I would add 
parenthetically the identification of individuals who will 
support that effort, is underway and we hope that we will have 
boots on the ground, so to speak, within the next 2 weeks.
    But that effort will indeed appear in what we believe is 
the smartest, wisest way to do business; that is, those forces 
will be working--that is, take their duty or task--from the 
lead Federal agency for whom they will work, whether it is 
Border Patrol, Customs, or INS, which legally in terms of legal 
authority permits us to exercise our law enforcement 
capabilities and responsibilities in support of security at the 
border.
    Chairperson Feinstein. Thank you very much.
    I would like to hand you a letter which is signed by 
Chairman Leahy, Senator Murray, Senator Jeffords, and Senator 
Cantwell on this subject, if I might.
    General Libutti. Yes, ma'am.
    Chairperson Feinstein. Let me go to the next question. In a 
September 20, 2001, report GAO noted confusion between the 
National Guard's Weapons of Mass Destruction Civil Support 
Teams and the FBI as far as who would have the lead role in 
providing guidance to first responders.
    In that report, GAO recommended that the Secretary of 
Defense reach a written agreement with the Director of the FBI 
that clarifies the roles of the National Guard teams in 
relation to the FBI. DOD, it is my understanding, concurred 
with that recommendation.
    Has such an agreement been reached, and if not, why not?
    General Libutti. Ma'am, I don't know whether an agreement 
has been reached. I have no personal knowledge of that and I 
will do my homework and follow up and provide a response. What 
I can tell you is that under the circumstances for employment 
and support by our CSTs, the FBI does have lead in that and we 
support the FBI, were our teams called upon to support that 
event, whatever that event or situation might be.
    Chairperson Feinstein. Thank you.
    General Libutti. That is, ma'am, what we would call the 
standard procedure in terms of employment of those forces.
    Chairperson Feinstein. The FBI would be the first 
responder?
    General Libutti. First responders would be those first on 
the scene. The FBI would have authority as they moved on to the 
scene and we would take our lead from the FBI.
    Chairperson Feinstein. Thank you very much.
    General Davis, in 1999 Congress authorized the creation of 
Weapons of Mass Destruction Civil Support Teams, each 
consisting of 22 National Guardsmen. These teams were created 
with the purpose of responding to attacks involving weapons of 
mass destruction. The authorizing legislation required that 
none of the teams be used to respond to an emergency unless the 
Secretary of Defense certifies that the team has the requisite 
skills, training, and equipment to be proficient in all mission 
requirements.
    Although the first ten teams were originally scheduled to 
be fully operational by January of 2000, none of them were 
certified until July 2001. Congress has now authorized a total 
of 32 teams.
    My question is how many of the 32 teams Congress has 
authorized have been certified by the Department of Defense?
    General Davis. Well, we still have just those original ten 
teams that have been certified. It is done in three phases, 
ma'am, 10 in the first phase, 17 in the second phase, and 5 
which were recently announced in the third phase.
    Those teams that are in the phase two portion of it have 
completed--about 60 percent of them have completed their 
training and the remaining few are in training now, with 3 or 4 
to complete their training in January. We hope that if things 
go as well as they have up to this point with the successful 
training and the equipment flow, we hope to have those teams 
certified sometime in the late winter, anticipating that some 
will be certified not long after.
    Those that have completed their training are doing a little 
follow-on training, following what we call an external 
evaluation which is done just to standardize it and make sure 
they meet all the quality performance standards at Ford Leonard 
Wood, and that is a consolidated program, so we do it across 
the Nation, the same standards. As we complete that program, a 
few weeks after that their paperwork will be submitted, and I 
think some of the paperwork is flowing through now, ma'am, on 
those teams.
    Chairperson Feinstein. Now, when did you say they would all 
be certified?
    General Davis. The final 32 teams--the last 5 which were 
just recently announced in October, we are working now to staff 
those teams and to get equipment for them. We would hope that 
we could do that in about 15 to 16 months, ma'am.
    Chairperson Feinstein. Allow me one parochial question. 
When will the 95th Civil Support Team, headquartered in the San 
Francisco Bay area, be certified?
    General Davis. Paul?
    General Monroe. We think by the end of January.
    Chairperson Feinstein. Of next year?
    General Davis. Yes. That is the final team. That will be 
the second team in California, ma'am, as you are aware.
    Chairperson Feinstein. Thank you very much.
    Senator Kyl?
    Senator Kyl. Thank you, Madam Chairman.
    General Libutti. Ma'am, may I add to a point that you 
raised with me just for clarification in terms of an incident 
site or a situation that would require employment of the CSTs?
    Chairperson Feinstein. Yes.
    General Libutti. Oftentimes, it simply wouldn't be first 
responders and FBI. There would most likely be Department of 
Energy folks, as well, on scene. So, again, just to clarify the 
situation, we would normally be in support of either the 
Department of Energy or the FBI. It would depend on the 
situation and the timing in terms of how this incident was 
unfolding.
    Chairperson Feinstein. Thanks, General. That is helpful. 
Thank you.
    Senator?
    Senator Kyl. Along that same line, General Libutti, let me 
just give you this hypothetical. Tomorrow morning, a bioattack 
is discovered in the nature of some kind of dispensing of 
smallpox in the New York City area and there is a mass exodus 
of people, or attempted mass exodus of people out of that area. 
It is highly contagious, of course, and you would want to do 
some kind of a quarantine.
    Would the National Guard be ordered to preclude New Yorkers 
from leaving the area and spreading the disease around the 
country?
    General Libutti. Sir, if I can respond by addressing it in 
the following way, what we would hope would happen both at the 
national level and State and local would be an effort that 
would be one in concert with the other. We would hope that we 
would get initial assessment from first responders and a second 
assessment and request for support from the mayor or the 
Governor, and at that point, and I am talking minutes, not 
hours, an appropriate response or a call made to either 
Governor Ridge--and I am playing out your hypothetical if you 
will permit me--or to the President assessing the situation, 
identifying what the immediate need appears to be, and a 
decision therefore made in concert with the Department of 
Defense and other Federal agencies on how we might respond 
immediately--that is, with Federal response forces--if, again, 
requested and if we assess it as appropriate.
    So I mean the point is that certainly in an emergency all 
hands, all Federal agencies, including the Guard, reserve, 
active forces, if you will, would be prepared to support. 
Again, I am playing through this hypothetical with you.
    Senator Kyl. Sure, and the question is intended as purely 
hypothetical and with all the normal caveats that we don't have 
all of the facts, and so on.
    General Libutti. Yes, sir.
    Senator Kyl. But it is a helpful answer. I am going to 
extrapolate a little bit. I gather the answer is, yes, that 
could be and, in fact, might well be part of the response 
quickly to such an event if the proper call were made.
    General Libutti. Now, you have pushed the right button for 
me and I am thinking as a former operator. The concerns I would 
have would be, of course, with the health issue, the 
contamination issue, the isolation of the area, protection of 
key facilities, et cetera, et cetera.
    Certainly, the police, fire department and health agencies 
within New York City would be on-scene and doing their very 
best, and then it is a matter of what other Federal or local or 
State assets could you bring to bear very quickly.
    Senator Kyl. I guess there are two things that I wanted to 
get out of this, and purely hypothetical. The first is that it 
is quite possible that the homeland defense office would order, 
through the appropriate channels, in an appropriate way, nearly 
immediately upon request the Guard to help resolve that kind of 
a situation.
    General Libutti. Certainly a viable option, absolutely, 
sir.
    Senator Kyl. By the way, I am not advocating anything here. 
I am trying to illustrate a point here, and this is the second 
point that within the Office of Homeland Defense there is, as 
you say, an exploration of operational solutions for the 
future, which I would presume include a lot of at least 
tentative notions as to what you would do tomorrow if it 
happened.
    General Libutti. That specific point supports your point, 
as well as our sense that it is critical that we very carefully 
review the unified command plan that is underway now and we 
hope to close fairly soon, the Secretary does, because part of 
that will examine the wisdom and efficacy of standing up a CINC 
for homeland security.
    I won't go down that road in terms of options you are, I am 
sure, aware of, but that is key critical to decisions relative 
to, in my view, the future role of the Guard, the reserve, and 
those active forces that might be called upon to support the 
CINC for homeland security and then the national or regional 
situation that may present itself. So I am agreeing with you, 
sir.
    Senator Kyl. Right, and with due regard for, as you 
describe in your statement, a proper balance between the needs 
of warfighters abroad and the need to defend the Nation at 
home.
    I think, General Alexander, you made the same point at the 
beginning of your testimony and I am sure all of you would 
agree with that.
    So that is the point that I wanted to make here, and I 
think what we are most interested in here on the committee is--
and our role as the Judiciary Committee relates to terrorism 
and any legal things that would have to be done here. 
Obviously, the Armed Services Committee has a larger role in 
terms of the unified command issues and the like.
    We want to make sure that there is a process in place for 
anticipating what might happen and having the most appropriate 
forces prepared and ready to go so that there is no hesitancy 
at the time of a tragedy about what the options are and who has 
the authority to do what and the like.
    General Libutti. I think it is altogether fitting and 
proper, as my colleagues here on the panel have indicated, that 
we take a hard and proper review of the role of the Guard and 
reserve, for that matter, in the future, in the 21st century, 
relative to homeland security. It is absolutely critical we do 
that.
    Back to the point we have all made, the balance piece is 
also key critical, as well as understanding the apportionment 
of forces in this one pot called Department of Defense assets. 
If there were to be a change, and it is smart after an 
appropriate review, we need to be very careful how we deal with 
that so that we don't eviscerate or destroy the current 
standard, which is fight the fight at home and fight the fight 
abroad.
    Senator Kyl. Thank you. That is very helpful.
    General Davis. If I might, please, the Department of 
Defense in their reserve affairs office has just kicked off a 
study which will look at that. Is that the right mix? Do we 
have the right people in the National Guard and the reserve and 
in the active component? That study has kicked off and it will 
be completed sometime in the late spring, I believe.
    Chairperson Feinstein. I suppose an argument can be made, 
well, just leave things the way they are and the right things 
are going to happen, depending upon the situation, and it 
protects the primary mission of the Guard. I am not sure that 
is the case.
    I mean, I think we are into a very unusual time. Who would 
have thought that the events of the anthrax incidents, looking 
at cropdusters, the World Trade Center, the Pentagon, the fear 
that something else is going to happen--we have never been in 
that arena before and the longer I am around, the more I think 
the kind of primary military response is really the protection 
of the homeland.
    I don't know another entity to do it and I have been 
somewhat puzzled by Defense not wanting to take a position here 
because I think we need to very aggressively define it. If you 
need more money, say so, but really get these teams certified--
I mean, it has been slow going--and move ahead.
    Of all the witnesses today in terms of what I would like to 
see accomplished, General Monroe was the most forthcoming with 
opinion, and I think maybe General Alexander. My understanding 
is that the Guard Association is in favor of moving in this 
direction.
    Is that correct?
    General Alexander. The associations are in favor of 
homeland security being a primary mission for the National 
Guard. They advocate resourcing the structures that exist now 
to the extent that they can perform effectively the homeland 
security mission, while in dual status it can accomplish 
missions abroad.
    When the Guard was born, our military was not an 
expeditionary force. The sole intention was to protect the 
homeland. But this has evolved, as you mentioned, since 1903 to 
date, so we have an obligation to not only protect at home, but 
to protect abroad. Some would say the first responders are 
those that are on the ground in Afghanistan protecting the 
homeland.
    So there has to be a conscious mix of modifying our force 
to the extent that we can satisfy the homeland while satisfying 
our obligations abroad because there is no separate and 
distinct--we are no longer isolated anymore.
    Chairperson Feinstein. That is correct.
    General Monroe, do you want to comment on that?
    General Monroe. Yes. I think it is important that we 
develop a force within each State that is a Governor's asset 
that they can respond to these things with because the military 
on the ground at the World Trade Center was the New York 
National Guard, and the New Jersey National Guard supported 
them. But that is what is going to happen.
    If there is an event that occurs in a particular State, the 
firefighters and the police officers are going to respond to 
it, and then the National Guard. And if it is more than the 
National Guard can handle, then there has to be Federal 
support. But if there was a force that could rapidly react to 
that, it could minimize the damage that was done during the 
incident.
    General Libutti. Ma'am, if I might add, just hitchhiking on 
a point you made about the DOD position, as I tried to 
articulate the concept or approach that we are looking at now--
and I would add I have been on the job about five-and-a-half 
weeks now, and am proud and pleased to be where I am.
    As I discuss this in great detail with Secretary White and 
other leadership in the Department, our concept, as I tried to 
again express, is when we think of homeland security, we think 
of the elements of that being homeland defense, unique 
capabilities and actions performed and led by the Department of 
Defense, and then the rest under the block called support for 
civil authority. That is the way we are trying to define now, 
currently, how we support our Governors, how we support our 
National situation in terms of terrorism, and how we intend to 
do it in the future.
    I applaud the initiative to pull the veneer back and look 
very carefully at the role of the Guard. Again, my point is 
that we should be very circumspect; we should not be premature 
in making judgments to change things until we see the results 
of reviews that are already underway and should be closed by 
the spring in terms of what DOD is doing to look holistically 
at the role of the Guard and reserve, what we are doing inside 
DOD, and that is to stand up what we hope will be an under 
secretary of defense, coupled with what Governor Ridge is 
doing, and that is organizing his team and also developing a 
national strategy for homeland security.
    Chairperson Feinstein. Well, wait one second. So this 
wouldn't necessarily be under Governor Ridge. It would be under 
an assistant secretary. Is that correct?
    General Libutti. I work, again, for Secretary White. He is 
the Executive Agent for Homeland Security for the Department of 
Defense and I am his special assistant. My charter is to work 
the day-to-day issues that come to the Defense Department 
relative to homeland security and to stand up, without new 
structure, but stand up an organization that combines current 
assets that work with homeland security but not under one 
leadership or one organization within DOD. So what we have 
started is something within the last 4 to 5 weeks to create an 
Office of Homeland Security within DOD.
    General Monroe. Madam Chair, one other point, too. As you 
have pointed out, I have been around a long time and the Guard 
used to be involved in a similar way that we are talking about 
now. We had these air defense sites, where most of the people 
that manned these sites were full-time. They were along both 
coasts and they were operated by the National Guard as air 
defense for the United States against Soviet bombers. Well, 
when they developed intercontinental ballistic missiles, then 
those sites went away.
    We also have something called the counter-drug program that 
we have been working for the last 10 years, and we are doing 
similar missions to this new mission that has come up along the 
border and we are doing it in Title 32, working for the same 
agencies that have requested this support. I can't think of a 
State that didn't advocate that this be done under Title 32 
because it is just, as we see it, a continuation of what we are 
already doing.
    Chairperson Feinstein. I am a little puzzled that they used 
Title 10 myself.
    I would like to recognize the distinguished chairman of the 
committee. Mr. Chairman, if you have some comments, we would be 
delighted to hear them.

  STATEMENT OF HON. PATRICK J. LEAHY, A U.S. SENATOR FROM THE 
                        STATE OF VERMONT

    Chairman Leahy. I do, Senator, and I thank you for doing 
this and I apologize for popping in and out. I am trying to 
juggle two other committees.
    General Davis, it is good to see you again. I know you were 
well received in Vermont. I talked with General Rainville 
earlier about this hearing, and she sends her best.
    General Alexander, it is always good to see you.
    I think Senator Feinstein deserves an enormous amount of 
credit for doing this at a far busier time of the Senate 
session than I think either she or I ever thought it would be. 
So I applaud her for doing it.
    I was glad to see Senator Bond come here. He and I co-chair 
the 85-member Senate Guard Caucus, something that we both think 
of with pride.
    In Vermont, it is easy to talk about those kinds of things. 
We led the Nation in the per capita number of our reserves and 
Guard who were called up in the fight against terrorism. Within 
hours of the terrible events of the 11th, we had the Green 
Mountain Boys, our Air Guard, flying F-16s over New York City, 
the F-16 Fighting Falcons. I must admit they make it from 
Burlington, Vermont, to New York City a lot quicker than I have 
ever been able to go, and they don't lose your luggage along 
the way. So I applaud that.
    But you know how difficult that is when you are trying to 
coordinate, and be able to do it almost immediately, to 
coordinate the turnaround, just as you can imagine, General 
Monroe, the logistics of somebody saying, okay, we are going 
from this to suddenly being down there.
    General Libutti, you know in the Department of the Air 
Force when you are trying to mesh all those things, it looks 
great on paper, but you want to make sure it works when you 
actually do it.
    So I think that they deserve a great deal of credit, 
obviously not only the Vermont Guard, but throughout the 
country, because they are the premier homeland defense force, 
and they have been proving it.
    I have some concerns, and I understand Senator Feinstein 
has already put in the record a letter on this, but my concern 
about the administration considering establishing a central 
military homeland security command. I worry about how it might 
impact on the Federal-State balance, especially as the Guard is 
concerned.
    Would Guard forces, for example, be called up continually 
under Federal active-duty status? Do they become 
indistinguishable from their active counterparts? Do the 50 
Governors of our States and the adjutants general have control 
over the forces that serve within their States? If we go on the 
border, for example, do we suddenly have Guard units from 
California in the Burlington, Vermont, airport or along our 
borders? Are Vermont Guard people along the border in the State 
of Washington and Canada, or Michigan, and so on?
    Do you bring them under Title 10, placing them on Federal 
active duty under an out-of-state command? That is what kind of 
worries me, especially when we talk about along the northern 
border, 4,000 miles of it.
    I worry about the Governors and the adjutants general 
losing control of their own forces. On the other hand, under 
Title 32, as I understand it, Guard troops are federalized for 
pay and allowances, but the Governors and the State adjutants 
general maintain command and control. That is why the 
Washington State delegation and those of us from Vermont sent a 
letter to Governor Ridge on this basis.
    Every single Governor is making homeland security and 
emergency response a priority. I mean, there is not a Governor 
in the country that is not looking at everything from 
bioterrorism to every other kind. Here in the Congress, we have 
been wrestling with this. Some of us, I must admit, have 
probably focused a little bit more in recent days on the 
question of anthrax, but we all have an interest in this.
    I just don't want to take the Guard, which has performed so 
well in all the States--I know it has in California and every 
other State--I don't want to start reinventing the wheel here 
and take what is a well-working organization and turn it into 
something else.
    So those are just some ruminations of mine. Again, I can't 
emphasize enough how important it is that the Senator from 
California is holding this hearing.
    I must say, Madam Chair, that you couldn't have four better 
people to be here to discuss it with you. Any questions I have 
I will submit for the record, but I just wanted to come over 
and make those comments. I know you have put our letter in the 
record, and I thank you for doing this at a very busy time.
    [The prepared statement of Senator Leahy follows:]

                 Statement of Senator Patrick J. Leahy

    I want to thank Senator Feinstein for her work in organizing this 
important hearing.
    As the co-chair of the 85-member U.S. Senate National Guard Caucus, 
I am intensely interested in the emerging role that is being taken by 
the National Guard in homeland defense. In Vermont we take particular 
pride in our National Guard--the fabled Green Mountain Boys. In fact, 
Vermont leads the nation in the per capita number of reserves called up 
to fight in the war on terrorism. If you have visited Ground Zero, you 
have probably run across citizen-soldiers from the Green Mountain Boys 
protecting the site or have seen the contrails overhead of the Vermont 
Air National Guard F-16 Fighting Falcons that have flown continuous air 
patrols over New York City since September 11. They have handled these 
difficult and unprecedented assignments with grace and, while doing so, 
they and their families and their employers have made sacrifices for 
which the nation is grateful.
    I welcome all of our witnesses to the Senate. Senator Bond, I 
appreciate your taking the time to be with us to introduce this 
subject. I value our partnership in working on National Guard Caucus 
issues, and I look forward to facing next session's challenges 
together. General Davis, I have enjoyed working with you over this past 
year, and I want to congratulate you on your approaching retirement. 
General Libutti, I appreciate your giving us a broader Army perspective 
on the emerging role of the Guard in Homeland Defense. I am especially 
glad we have an Adjutant General of the United States, General Paul D. 
Monroe of California, and the executive director of the National Guard 
Association of the United States, retired Major General Richard 
Alexander. Your insights will be critical to our deliberations. As 
always, I also value highly the counsel I receive from General Martha 
Rainville of Vermont.
    On all fronts, the National Guard is performing incredibly well 
with the assignments given Guard units in the aftermath of the 
terrorist attacks. They are proving every day that they are the 
nation's premier homeland defense force. Guard Interceptors from New 
Jersey, North Dakota, the District of Columbia, and Massachusetts, in 
addition to Vermont, have flown continuous air patrols over New York 
City and Washington since September 11. Thousands of troops from the 
Guard are standing watch at our airports and, soon, at our immigration 
posts. What makes these contributions all the more impressive is that 
all of it has been done under longstanding authorities with little 
question about chains of command and local control.
    While I am glad that we are convening today, I have to admit that I 
am concerned that--despite these real accomplishments since September 
11--the Administration is actively considering establishing a central, 
military homeland security command. Such a command has serious 
implications since it could have a negative impact on the Guard and the 
balance of powers between the federal and state government.
    Basically, this approach does with the military domestically what 
the Goldwater-Nichols legislation did for structuring how we fight wars 
abroad. The Goldwater-Nichols law created a Unified Command Plan that 
invested responsibility for operational control in wartime with various 
regional commands. That legislation in the mid-1980s left homeland 
defense operations within the borders of the United States untouched 
because it raised too many objections about involving the military 
excessively in civilian affairs.
    While we have seen the fruits of this landmark legislation in our 
ongoing fight against terrorism abroad, I wonder if we have really 
thought through the implications of extending the command plan to the 
United States. We need to ask what it would gain us and what it would 
cost us to impose such a change on the National Guard. Would Guard 
forces be called up continually under federal active duty status, 
becoming indistinguishable from the their active counterparts? How 
would the nation's Governors and Adjutants General have control over 
the forces serving in their states?
    Several of the concerns about creating a central homeland security 
command that uses the Guard mirror some of the issues raised by the 
recent discussions about bringing forces to supplement the INS along 
the porous 4000-mile Northern Border. There is question about whether 
to bring these force on under Title 10 status, which places Guard 
forces on federal active duty under an out-of-state command, and could 
conceivably result in bringing federal troops from distant locations to 
serve in place of state National Guard members. This action completely 
removes the Governor and the Adjutant General from any command and 
control over their own troops. Under Title 32 status, which is 
federalized for pay and allowances but with command and control 
maintained by the governors and states adjutant general, this would not 
be the case.
    My own view on that question is that forces should be brought up 
under Title 32 duty because they have more flexibility to do the job. 
Additionally homeland security performed by state National Guard troops 
under the control of their own Governor and their own Adjutant General 
is much more acceptable to the citizens of each state. These are 
friends and neighbors of the citizen soldiers and they have come to 
expect and depend on Guard troops to perform these types of missions 
within their borders. These are missions the Guard was created for and 
trains for on a continuing basis. Under Title 32--state-controlled 
troops ensure Governors and Adjutants General remain in command and 
control of their own troops. Senator Feinstein, I would like to ask 
that a letter that the Vermont and Washington State Senate delegations 
sent to Governor Ridge on this subject be included in the record.
    It seems to me that we may not need to make radical changes in the 
structure of the military and the Guard to carry out the homeland 
defense mission. All of our nation's governors are making homeland 
security and emergency response a priority. If there are skills in 
dealing with contingencies that they lack, then they can train to 
respond more effectively. Meanwhile, the National Guard has shown that 
its units can perform superbly when called upon. I question whether we 
are trying to find a solution for a problem that does not exist. Let's 
not reinvent the wheel here.
    For the benefit of this committee, the Senate, the House and the 
Administration, I hope our witnesses will frankly address these issues 
in their testimony. I look forward to their testimony. Thank you again, 
Senator Feinstein.

    Chairperson Feinstein. Thank you very much, Mr. Chairman. 
We appreciate it very much that you would take the time to be 
here.
    I would like to add to the record the statement of Bernard 
Rostker, from the RAND Corporation, on this subject. 
Unfortunately, he was ill and couldn't be here today.
    [The prepared statement of Mr. Rostker follows:]

    Prepared Statement of Bernard Rostker, Senior Researcher, RAND 
                  Washington Office, Washington, D.C.

    Madam Chairman and members of the committee it is my pleasure and 
honor to be here today to discuss the important topic of the National 
Guard and homeland security. While my remarks are based upon 
observations made during my tenure as a senior official of the 
Department of Defense, and as a senior researcher at RAND, they are my 
own and do not necessarily represent the views of the Department of 
Defense or RAND.
    During 1994, I was a member of a team at RAND that carried out a 
congressionally mandated study concerning the ability of the National 
Guard ``to fulfill both its State and Federal missions.'' The study was 
mandated under Public law 103-160, 107 Stat. 1655, November 30, 1993. 
As part of that study we visited a number of states that had recently 
employed their National Guard in support of ``consequence management'' 
activities resulting from domestic emergencies and disasters, as well 
as civic action activities ranging from work with at risk youths to 
drug interdiction. During our field work we met with State Adjutants 
General and emergency coordinators. We interviewed until commanders and 
ordinary Guardsmen. We met with officials of the Army, the Air Force, 
and the National Guard Bureau and visited their readiness centers in 
Arlington, Virginia and at Andrews Air Force Base. In one State we even 
met with the Governor. RAND published the results of this study as a 
report, MR-557-OSD, Assessing the State and Federal Missions of the 
National Guard.
    I came away from this project with a deeper understanding and 
appreciation of the value of the National Guard, and for the dedication 
of the men and women who serve their State and Nation. The National 
Guard is an asset in both war and peace.
    Several years later I found myself serving as the Under Secretary 
of the Army. In that capacity I assisted the Secretary of the Army with 
his responsibilities as the Defense Department's executive agent for 
military support to civil authorities. My field visits in 1994 served 
me well, giving me a much better appreciation for the use of the 
National Guard and the Federal Reserves in support of operations other 
than war in the United States.
    As I noted the National Guard is a valuable asset in both war and 
peace. Today's missions for homeland security, while supporting our 
world wide effort to combat terrorism are more like traditional State 
missions under Title 32, than they are like combat missions under Title 
10. Based upon my experience here are a number of points that I can 
recommend to you and the Committee as you consider the role of the 
National Guard and the need for any new legislation.
  <bullet> The best solutions are local. My best advice is solve the 
        problem at the lowest possible level. Federal authorities must 
        remember that the National Guard is not the regular Army or Air 
        Force. Guardsmen have chosen to be part-time soldiers and 
        airmen, respect their decision.
  <bullet> The National Guard is federalism at work, make the most of 
        it. Don't cut the Governors or their State Adjutants General 
        out of the action, use them. The National Guard is a unique 
        asset, particularly when it remains in State status under Title 
        32. As agents of their State they are not subject to the 
        provisions of the federal posse comitatus statute, and can be 
        granted police powers by their Governors.
  <bullet> The mission should be given to the State Adjutant General. 
        He or she is in the best position to determine how to use 
        effectively and efficiently the manpower of his or her State 
        National Guard. In my field visits I was impressed by how well 
        the State Adjutants General moved Guardsmen in and out of 
        active service to facilitate the mission and meet the other 
        responsibilities of their part time soldiers and airmen.
  <bullet> The commanders of the National Guard are experts in working 
        with State and local government and organizations. They know 
        the people and can relate to local conditions better than a 
        federal force.
  <bullet> The National Guard organizations of the states have learned 
        to work together in mutual aid compacts. This could be 
        strengthened with national compacts, rather than just regional 
        compacts. However, the system of compacts makes the whole 
        greater than the sum of its parts.
  <bullet> Coordination and standardization can and should be 
        accomplished through the National Guard Bureau and it's 
        readiness centers.
  <bullet> Individual Guardsmen called to State active duty should have 
        the full protection of the Soldiers and Sailors Relief Act. 
        However, the best way to protect a Guardsman is to give the 
        State Adjutant General the flexibility to employ his personnel 
        as he sees fit. He is in the best position to protect his 
        troops. Relying on statute will, in the long run only 
        antagonize employers. Flexibility is the answer. The State 
        Adjutants General are the key.
    Again, thank you for the opportunity to present my views. I am 
ready to answer any questions you may have.

    Chairperson Feinstein. Also, we will include the letter to 
Tom Ridge from Senators Leahy, Murray, Jeffords, and Cantwell 
on the Title 10 versus Title 32 issue.
    [The letter referred to follows:]
    Chairperson Feinstein. General Libutti, I would like to 
give you, if I might, a summary and a draft of a bill. You 
know, it is sort of an interesting thing. On the homeland 
security issue, we began a year-and-a-half ago in this 
subcommittee, Senator Kyl and I, urging that we move on 
homeland security, after we had the commission reports from 
everybody, and we couldn't get the administration to move.
    And then, boom, the administration moved, I think, sort of 
in a partial way because I believe very strongly the Director 
of Homeland Security should have both statutory and budgetary 
authority. We have got 40 departments. The GAO says 25 percent 
of the $13 billion we spend on terrorism isn't as well spent as 
it might be. We ought to take a look at that.
    I believe whoever is Director of Homeland Security has to 
be able to move the chessmen on the board, not just give 
television interviews, but have real statutory authority. So I 
am going to introduce a bill. I would love to have the Defense 
Department's input. I would love to have your imprimatur on it. 
I don't know whether that is possible or not, but I would like 
to give you a copy of the statement and the drafted bill, and 
ask you if you would get back to Senator Kyl, to myself, to 
Senator Leahy if you care to, or Senator Hatch, who is very 
interested in this. It would be very good if we could all put 
something together prior to the time it is introduced.
    Would you do that?
    General Libutti. Yes, ma'am. I would be honored. Thank you.
    Chairperson Feinstein. Thank you.
    General Davis, I know you are under strictures not to be 
able to say anything, but if you have any personal views that 
you would care to offer, I would like to give you that 
opportunity.
    General Davis. Just between us.
    Chairperson Feinstein. Just between us.
    [Laughter.]
    General Davis. No, ma'am. Thank you very much.
    [Laughter.]
    General Davis. One thing I would like to add, though, is we 
are doing a lot of training in the National Guard, and we do it 
through some systems that we have put together over the past 8 
years of communication and classrooms, that kind of thing, 
distance training programs. We are using some of that to train 
and work with our first responders.
    It also has the capability as a back-up communications 
network, and that is kind of part of what we see as our role in 
homeland security is to look for opportunities to use 
capabilities that are currently in existence. These programs, 
we think, are very, very key to be continued and perpetuated 
and funded.
    So thank you for the opportunity to represent those 450,000 
folks on our birthday, and we look forward to working with you 
in like manner with respect to your bill.
    Chairperson Feinstein. Thank you very much.
    I am happy, General Monroe, General Alexander and General 
Davis, to make copies available to you. It has not been 
introduced. It is a draft. We would like input, but I think 
there really is an issue that we need to resolve, particularly 
since the Defense Department has decided to move on Title 10. 
That creates an issue, I think, that we need to be cognizant of 
as well.
    General Libutti. The bottom line, too, ma'am, if I may, on 
that was really in great measure based on a review of the 
mission in terms of is that a Federal mission. And I am happy 
for any forum or opportunity I have to lay out greater detail 
in terms of the rationale in support of that decision to you or 
other distinguished members of your subcommittee.
    Chairperson Feinstein. Are you saying, General, because it 
is a border issue that is going to involve more than one State 
and it involves people outside of the State--which makes some 
sense, incidentally--that you felt it was necessary?
    General Libutti. Yes, ma'am. I think at the heart of the 
debate will always be two things: one, the funding piece, and 
who is in control of the assets--funding and who is in control 
of the assets. It is not a matter of whether the Guard ought to 
be employed and whether the Guard forces or reserves are 
appropriate. I think everybody at the table would agree that is 
the right answer, given the circumstances.
    The issue, again, is what statute do you apply, given the 
criteria and support of what is appropriate and what is legal 
in terms of legal authority, to execute a mission under those 
conditions, not to get wrapped around the legal aspect of that. 
Again, I would be very happy and honored to come and discuss 
that in greater detail.
    Chairperson Feinstein. That is excellent. Thank you.
    The record will be kept open until Thursday, December 20, 
until five o'clock.
    We will give General Alexander the last word.
    General Alexander. I would like to applaud the effort at 
controlling our southern border and the Southwest, and the 
merging of Title 10 and Title 32, where the States in Title 32 
status are complementing the security of those borders. It is a 
very large border, it is a very porous border, but for years 
that kind of combination has made a significant contribution to 
the control of that border.
    Chairperson Feinstein. I agree with you, General. Thank you 
very much. Gentlemen, thank you for your testimony.
    This hearing is adjourned.
    [Whereupon, at 3:38 p.m., the subcommittee was adjourned.]
    [A submission for the record follows.]

                       SUBMISSION FOR THE RECORD

                                       United States Senate
                                     Washington, D.C. 20510
                                                  December 12, 2001

The Hon. Tom Ridge
Director, Office of Homeland Security
The White House
Washington, D.C.

    Dear Tom,
    Recently, the Justice Department announced its request that troops 
from the National Guard supplement agents from the Immigration and 
Naturalization Service along the porous 4000-mile northern border. We 
understand that the Department of Defense is considering calling up 
these troops on a federal, Title 10 status. As representatives of two 
border states, we would like the administration to reconsider the idea 
and call up the forces under Title 32 instead.
    Title 32 would allow more flexibility to accomplish this critical 
mission. Unlike forces called up under Title 10, Title 32 forces are 
not subject to posse comitatus restrictions. They can assist local and 
federal law enforcement organizations with its full range of 
activities, including arrests. Also in contract to Title 10, Title 32 
forces can continue to train for other missions. As the National Guard 
remains the nation's primary military reserve, this status allows our 
nation's adjutants general the ability to cycle forces through training 
and remain ready for other contingencies.
    Title 32 also ensures that members of the Guard called up stay 
generally within their home state. Our nation's governors will remain 
in control, while Guard forces serving in their home state can bring 
unparalleled familiarity with the problems and challenges facing their 
communities. That understanding raises the comfort level of the 
country's citizens who might otherwise be concerned to hear that active 
duty troops from far away are serving in their community.
    There are certainly occasions where members of the National Guard 
should be called up under a Title 10 status. But in this case, it seems 
apparent that Title 32 is the more sensible approach. We would 
appreciate your considering this question and responding as soon as 
possible with your views. We are impressed with your contributions in 
the months immediately after the awful events of September 11, and we 
look forward to continuing our work together.
            Sincerely,
                                              Patrick Leahy
                                              United States Senator

                                               Patty Murray
                                              United States Senator

                                             James Jeffords
                                              United States Senator

                                             Maria Cantwell
                                              United States Senator

                       <greek-d>
</pre></body></html>
